<html>
<title> - EVALUATING GOALS AND PROGRESS IN AFGHANISTAN AND PAKISTAN</title>
<body><pre>[Senate Hearing 112-103]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-103

       EVALUATING GOALS AND PROGRESS IN AFGHANISTAN AND PAKISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.fdsys.gov






                  U.S. GOVERNMENT PRINTING OFFICE
68-326 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        







                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary R., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    39
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    49
    Responses to questions submitted for the record by Senator 
      James M. Inhofe............................................    53
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  

 
       EVALUATING GOALS AND PROGRESS IN AFGHANISTAN AND PAKISTAN

                              ----------                              


                        THURSDAY, JUNE 23, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Menendez, Cardin, Casey, 
Webb, Shaheen, Coons, Durbin, Udall, Lugar, Corker, Risch, 
Rubio, DeMint, Isakson, Barrasso, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order, please.
    It's a terrific pleasure to welcome Secretary Clinton back 
to the committee. I know, Madam Secretary, that you are 
literally fresh back from South America, the Caribbean, and we 
appreciate very much your willingness to take the time from an 
incredibly hectic schedule to join us.
    Your leadership in South Asia has been important in many 
different ways and so we're particularly looking forward to 
your assessments today of where we are. I know you had to 
rearrange your schedule in order to be here, so I want to 
express my gratitude to Cheryl Mills and your staff for helping 
to make that happen and for your willingness to do this 
notwithstanding just getting off the plane.
    Before we begin, if I can just say that as soon as we have 
10 members here we're going to quickly have a business meeting 
to approve the nominations, hopefully approve, of Deputy 
Secretary of State Bill Burns, and the Ambassadors to China and 
Afghanistan, all important. Then we have another business 
meeting scheduled for next Tuesday, you'll be pleased to hear, 
which will take up other pending nominations. I think that will 
pretty much clear our docket of key nominations.
    Last night the President kept the commitment that he made 
to the American people 18 months ago at West Point. Because of 
the gains made in Afghanistan in the intervening months, and I 
believe from a position of strength, the President was able to 
lay out the next phase of our strategy, a transition to Afghan 
control that begins by withdrawing a significant number of our 
troops between next month and September 2012.
    The ability to reap the surge dividend and to bring home 
33,000 troops over the next months is I think--and I think 
people will agree with me--a testament to the courage and the 
sacrifices of our young men and women in uniform and their 
civilian counterparts. Every time that I have visited the 
region, from Kabul to Kandahar, Helmand to Khost, I am deeply 
impressed by the commitment and ability of our troops. Some are 
on their fourth or even fifth combat tour. Yet all remain 
steadfast in performing their duty with honor and with 
professionalism. I know you will agree, Madam Secretary, that 
it is their efforts that have helped to bring us to this 
historic transition point.
    I think it's important also to acknowledge, notwithstanding 
the criticisms that I hear from both right and left, that if 
you really stop and think about it, we have met our major goals 
in Afghanistan as articulated by the President. We 
significantly disrupted
al-Qaeda and dramatically reduced its presence in the country. 
The job is not finished, but we have come to the point where 
this mission can transition.
    Bin Laden's death last month was the capstone of the 
President's original objective. Our strategy has given the 
Afghans the opportunity to build and defend their own country, 
something, incidentally, that they have done for centuries 
without our help.
    Senator Lugar and I hope that over these last months this 
committee has contributed to the public dialogue on 
Afghanistan. Since 2009 we have held 20 hearings and helped to 
focus attention on critical issues. During that process, I 
think it's fair to say that all the members of the committee 
have developed conclusions that we believe will continue to 
have an impact on the remaining challenges.
    Obviously, the remaining challenges are significant. The 
most important one, as I have said many times--I think the 
Secretary agrees--is really Pakistan, where we have a 
complicated relationship. We have to work with the Pakistanis 
where our interests converge and, frankly, we have to 
understand where they don't converge and work to try to bring 
those interests together, to find the common ground where, even 
if there are some different goals, we're able to overcome the 
obstacles.
    For sure, the Pakistanis have reacted very strongly to the 
events of May 2. They have clamped down on visas, making it 
difficult for military, intelligence, and civilian personnel to 
do their jobs, although after the recent trip of Secretary of 
Defense Leon Panetta to Pakistan I think there has been some 
improvement. But reducing our footprint in Afghanistan, coupled 
with the kind of high-level diplomacy that Secretary Clinton 
engaged in when she was there last month, should open the door 
for new talks on a range of topics, from reconciliation to 
shutting down extremist sanctuaries.
    The bottom line with respect to our engagement in 
Afghanistan is this: No number of troops will resolve the 
challenge of Afghanistan. Every military leader has said there 
is no military solution. So now is the time to work with all of 
the parties and all of the neighbors to find the political 
solution to this conflict.
    We cannot do this in a vacuum. As we talk with the Taliban, 
we have to pursue a vigorous diplomatic strategy with Pakistan, 
India, Russia, China, and other nations in the region. And we 
need to listen closely, especially to the Afghans and the 
Pakistanis, and work with them to protect our national 
interests.
    The drawdown therefore should not just be about the number 
of troops. We need to ensure that our diplomatic and 
development strategies are aligned with our political and 
military goals. The State Department and USAID have performed 
admirably in a very tough environment, hostile to say the 
least. But as we've said in our committee report earlier this 
month, we want to work constructively with the administration 
to ensure that our aid strategies are as effective as they can 
be.
    As Ambassador Karl Eikenberry winds up his tour in Kabul, I 
want to personally thank him for his service to his country in 
and out of uniform and for his willingness to tell the truth in 
high-pressure situations. He's been enormously helpful to me 
and to members of this committee on each of my visits and both 
he and his wife, Ching, have really served the country and the 
President well in my judgment.
    Secretary Clinton, again I want to thank you very much for 
being here. You have been deeply immersed in the challenges on 
both sides of the Durand Line. I know you are enormously 
respected in both Pakistan and Afghanistan and by the leaders 
there, and so we particularly look forward to your comments 
today.
    Senator Lugar.
    Senator Lugar. Secretary Clinton, I join----
    The Chairman. Could I just note, before you do your 
opening, that we have our quorum? I thought we'd go to the 
business meeting now.

    [Whereupon, at 10:15 a.m., the hearing was recessed and the 
committee proceeded to other business, then reconvened the 
hearing at 10:16 a.m.]

    The Chairman. Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I congratulate the nominees and I look 
forward to their service, and I join the chairman in welcoming 
you, Secretary Clinton, once again. The Foreign Relations 
Committee has undertaken a series of hearings on Afghanistan 
and Pakistan during the last 2 months that have illuminated 
many issues. We look forward today, for the first time in this 
series, to hearing the administration's assessments of the 
situations in those countries and its plans for moving forward.
    Much of the discussion about United States policy in the 
region has been focused on the specific question of how many 
troops should be withdrawn from Afghanistan. I believe troop 
withdrawals are warranted at this stage, but our policy in 
Afghanistan is in need of much more than troop reductions on a 
political timetable.
    The President should put forward a plan that includes a 
more narrow definition of success in Afghanistan based on 
United States vital interests and a sober analysis of what is 
possible to achieve. It should eliminate ambiguity about U.S. 
goals and make clear that we are not engaged in broad nation-
building. It should include an explanation of what metrics must 
be satisfied to achieve the original intent of the mission, 
namely to prevent Afghanistan territory from being used as a 
terrorist safe haven. Such a plan should designate and 
eliminate those activities that are not intrinsic to our core 
counterterrorism objectives.
    It is essential that Afghanistan be viewed in the broader 
strategic context. If we set out to reapportion our worldwide 
military and diplomatic assets without reference to where they 
are now, no rational review would commit nearly 100,000 troops 
and $100 billion a year to Afghanistan. An additional 31,000 
troops are in the region supporting Afghanistan operations. The 
country does not hold that level of strategic value for us, 
especially at a time when our Nation is confronting a debt 
crisis and our Armed Forces are being strained by repeated 
combat deployments.
    Administration officials have testified that Yemen is the 
most likely source of a terrorist attack against American 
interests in the short term. Further, we know that al-Qaeda has 
a far more significant presence in Pakistan than in 
Afghanistan. To the extent that our purpose in Afghanistan is 
to confront the global terrorist threat, we should be 
refocusing resources on Pakistan, Yemen, Somalia, parts of 
North Africa, and other locations. Neither political optics nor 
inertia should compel us to persist in outsized missions that 
have declined in strategic importance.
    The military and civilian efforts of the coalition have 
produced some notable progress that is measurable in relative 
terms. But in many parts of Afghanistan, measuring success 
according to relative progress has limited meaning. 
Undoubtedly, we will make some progress when we are spending 
over $100 billion per year on that country. The more important 
question is whether we have an efficient strategy for 
protecting our vital interests over the long term that does not 
involve massive open-ended expenditures and does not require us 
to have more faith than is justified in Afghan institutions.
    The Pakistan side of the border has a fundamentally 
different dynamic. Despite the death of Osama bin Laden, al-
Qaeda and other terrorist groups maintain a strong presence. 
There is no question that the threat of these groups, combined 
with worries about state collapse, a Pakistani war with India, 
the safety of the Pakistani nuclear arsenal, and Pakistan's 
intersection with other states in the region make it a 
strategically vital country worth the cost of engagement. The 
question is how the United States navigates the contradictions 
inherent in dealing with the Pakistani Government and Pakistani 
society to ensure that our resources and diplomacy advance our 
objectives efficiently.
    I appreciate Secretary Clinton's willingness to be with us 
today, and I look forward to our discussion.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Madam Secretary, we welcome your testimony. As you know, 
your whole testimony will be put in the record as if read in 
full, and we look forward to a good dialogue with the 
committee. Thank you.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much, Chairman Kerry and 
Senator Lugar; and to all the members of the committee, it's a 
pleasure to be back here with you in the Senate.
    As the President said last night, the United States is 
meeting the goals he set for our three-track strategy in 
Afghanistan and Pakistan. The military surge has ramped up 
pressure on al-Qaeda and Taliban insurgents. The civilian surge 
has bolstered the Afghan and Pakistani Governments, economies, 
and civil societies, and undercut the pull of the insurgency. 
The diplomatic surge is supporting Afghan-led efforts to reach 
a political solution that will chart a more secure future.
    All three surges--military, civilian, and diplomatic--are 
part of the vision for transition that NATO endorsed in Lisbon 
last December and that President Obama reaffirmed last night. 
As he said, Afghans must take responsibility for their own 
future.
    Today I want to amplify on the President's statement and 
update you specifically on our civilian efforts, and I also 
look forward to answering your questions about the road ahead, 
because, despite the progress, we have to stay focused on the 
mission. As the President said, we have to put al-Qaeda on a 
path to defeat, and we will not relent until the job is done.
    First let me say a word about the military effort. Last 
night the President explained his plan to begin drawing down 
our forces next month and transitioning to Afghan 
responsibility. I will leave it to my colleagues from the 
Defense Department to discuss the specifics, but the bottom 
line, as the President said, is that we have broken the 
Taliban's momentum. So we do begin this drawdown from a 
position of strength.
    With respect to the civilian surge, we greatly appreciate 
the attention that this committee has devoted to it, because 
improving governance, creating economic opportunity, supporting 
civil society, is vital to solidifying our military gains and 
advancing our political and diplomatic goals. Since January 
2009, we have tripled the number of diplomats, development 
experts, and other civilian specialists on the ground in 
Afghanistan and we have expanded our presence out in the field 
nearly sixfold. These new civilians have changed the way we do 
business, focusing on key ministries and sectors and holding 
ourselves and our partners to higher standards.
    There should be no doubt about the results of our 
investment, despite the very difficult circumstances that you 
all know so well. Economic growth is up, opium production is 
down. Under the Taliban only 900,000 boys and no girls were 
enrolled in schools. By 2010 7.1 million students were enrolled 
and nearly 40 percent of them girls. Hundreds of thousands of 
farmers have been trained and equipped with new seeds and other 
techniques. Afghan women have used more than 100,000 
microfinance loans. Infant mortality is down 22 percent.
    Now, what do these numbers and others that I could quote 
tell us? First, that, despite the many challenges that remain, 
life is better for most Afghans. The Karzai government has many 
failings, to be sure, but more people in every research 
analysis we are privy to say they see progress in their 
streets, their schools, their fields. And we remain committed 
to fighting corruption and strengthening the rule of law in a 
very challenging environment.
    The aim of the civilian surge was to give Afghans a stake 
in their country's future and provide credible alternatives to 
extremism and insurgency. It was not, nor was it ever designed, 
to solve all of Afghanistan's development challenges. Measured 
against the goals we set and considering the obstacles we face, 
we are and should be encouraged by what we have accomplished.
    Most important, the civilian surge helped advance our 
military and political objectives. Let me just offer one 
example. Last November, USAID began funding the reconstruction 
of irrigation systems in Wardak province, providing jobs for 
hundreds of workers and water to thousands of farmers. In 
March, just a few months ago, insurgents demanded that the 
people abandon the project and support the spring offensive. 
The people refused. Why? Because, they asked themselves, should 
we trade new opportunities for a better life for more violence 
and chaos?
    Frustrated, the insurgents threatened to attack the 
project. Local shuras mobilized and sent back a clear message: 
We want this work to continue; interfere and you will become 
our enemy. And the insurgents backed down.
    We have now reached the height of the civilian surge. Any 
effort of this size and scope will face considerable logistical 
challenges, and we have worked hard in the last 2\1/2\ years to 
strengthen oversight and improve effectiveness. We have, 
frankly, learned many lessons and we are applying them. The 
efforts of our civilians on the ground, working in some of the 
most different conditions imaginable, continues to be nothing 
short of extraordinary.
    Looking ahead, as the transition proceeds we are shifting 
our efforts from short-term stabilization projects, largely as 
part of the military strategy, to longer term sustainable 
development that focuses on spurring growth and integrating 
Afghanistan into South Central Asia's economy.
    Now, the third surge is our diplomatic surge. It is 
diplomatic efforts in support of an Afghan-led political 
process that aims to shatter the alliance between the Taliban 
and al-Qaeda and the insurgency and help to produce more 
stability. To begin, we are working with the Afghans on a new 
strategic partnership declaration that will provide a long-term 
framework for bilateral cooperation and NATO cooperation, as 
agreed to again at Lisbon. And it will bolster Afghan and 
regional confidence that Afghanistan will not again become a 
safe haven for terrorists and an arena for competing regional 
interests.
    As the President said last night, this will ensure we will 
be able to continue targeting terrorists and supporting a 
sovereign Afghan Government. It will also provide a backdrop 
for reconciliation with insurgents who must meet clear 
redlines. They must renounce violence, they must abandon al-
Qaeda, and they must abide by the Constitution of Afghanistan, 
including its protections for women. As I said in February in 
the speech I gave outlining this strategy, those are the 
necessary outcomes of any negotiation.
    In the last 4 months, this Afghan-led political process has 
gained momentum. Twenty-seven provincial peace councils have 
been established in Afghanistan and the Afghan High Peace 
Council has stepped up its efforts to engage civil society and 
women even as it also begins reaching out to insurgents. Let me 
underscore something which you will not be surprised to hear me 
say, but I say it not because of my personal feelings, but 
because of my strategic assessment. Including women and civil 
society in this process is not just the right thing to do, it 
is the smart and strategic thing to do as well. Any potential 
for peace will be subverted if women or ethnic minorities are 
marginalized or silenced, and the United States will not 
abandon our values or support a political process that undoes 
the social progress that has been made in the past decade.
    But we believe that a political solution that meets these 
conditions is possible. The United States has a broad range of 
contacts at many levels across Afghanistan and the region that 
we are leveraging to support this effort, including very 
preliminary outreach to members of the Taliban. This is not a 
pleasant business, but a necessary one, because history tells 
us that a combination of military pressure, economic 
opportunity, and an inclusive political and diplomatic process 
is the best way to end insurgencies.
    With bin Laden dead and al-Qaeda's remaining leadership 
under enormous pressure, the choice facing the Taliban is 
clear: Be part of Afghanistan's future or face unrelenting 
assault. They cannot escape this choice.
    Special Representative Marc Grossman is leading an active 
diplomatic effort to build support for a political solution. 
What we call the core group--Afghanistan, Pakistan, and the 
United States--has met twice and will convene again next week. 
At the same time, we are engaging the region around a common 
vision of an independent, stable Afghanistan and a region free 
of al-Qaeda. We believe we've made progress with all of the 
neighbors, including India, Russia, and even Iran.
    Just this past Friday, the United Nations Security Council 
voted unanimously to support reconciliation by splitting its 
sanctions on al-Qaeda and the Taliban into two separate lists, 
underscoring that the door is open for the insurgents to 
abandon the terrorists and choose a different path. We welcome 
these steps and for the United States the key diplomatic 
priority and indeed a linchpin of this entire effort is closing 
the gap between Kabul and Islamabad. Pakistan must be part of 
this process.
    Earlier this month, the two countries launched a joint 
peace commission and held substantive talks at the highest 
levels. Also very significant was the full implementation on 
June 12 of the Transit Trade Agreement, which will create new 
economic opportunity on both sides of the Durand Line and lay 
the foundation for a broader vision of regional economic 
integration and cooperation. This agreement started being 
negotiated in the early 1960s. It therefore took decades, 
including great heroic effort by the late Richard Holbrooke and 
his team. But the trucks are now rolling across the border.
    I recently visited Pakistan and had, as we say in diplo 
speak, very candid discussions with its leaders. The United 
States has clear expectations for this relationship and, as 
President Obama said last night, the United States will never 
tolerate a safe haven for those who kill Americans.
    We are looking to Pakistan to take concrete actions on the 
goals we share: defeating violent extremism, which has also 
taken so many innocent Pakistani lives; ending the conflict in 
Afghanistan; and securing a stable, democratic, prosperous 
future. Now, these are obviously tough questions to ask of the 
Pakistanis and there are many causes for frustration. But we 
should not overlook the positive steps of just recent weeks 
since May 2. Counterterrorism cooperation continues and several 
very key extremists have been killed or captured.
    As I told the Pakistanis, America cannot and should not try 
to solve Pakistan's problems. They have to eventually do that 
themselves. But nor can we walk away from this relationship and 
ignore the consequences, for all the reasons that Senator Lugar 
outlined in his opening statement: Pakistan is a nuclear-armed 
state sitting at the crossroads of a strategic region.
    And we have seen this movie before. We have seen the cost 
of disengaging from the region. As Secretary Gates, who was 
there at that time, has stressed, we cannot repeat the mistakes 
of 1989.
    That's why it's important we have the resources to continue 
implementing our strategy. The State Department is following 
the Pentagon's model and creating a special emergency fund, an 
overseas contingency operations account that separates normal 
operating costs from extraordinary wartime expenses.
    Now, I will hasten to say we are painfully aware of today's 
fiscal realities, and I know that it is tempting for some to 
peel off the civilian and diplomatic elements of our strategy. 
They obviously make fewer headlines. People don't know as much 
about them. And it would be a terrible mistake, and I'm not 
saying that just for myself, but as our commanders on the 
ground will tell you. The three surges work hand in hand. You 
cannot cut or limit one and expect the other two to succeed. 
Ultimately, I believe we are saving money and, much more 
importantly, lives by investing now.
    And let's not forget. An entire year of civilian assistance 
in Afghanistan costs Americans the same amount as 10 days of 
military operations.
    So, Mr. Chairman, Senator Lugar, members, I thank you for 
this opportunity to discuss our strategy. There have been a lot 
of developments in the last months and I feel that what we are 
doing is working, but it is obviously important that we ask the 
hard questions, and I look forward to working with you to 
improve the strategy and work together to implement it.
    Thank you very much.
    [The prepared statement of Secretary Clinton follows:]

    Prepared Statement of Secretary of State Hillary Rodham Clinton

    Thank you, Chairman Kerry and Senator Lugar. It is always a 
pleasure to see you.
    As the President said last night, the United States is meeting the 
goals he set for our three-track strategy in Afghanistan and Pakistan. 
The military surge has ramped up pressure on al-Qaida terrorists and 
Taliban insurgents. The civilian surge has bolstered the Afghan and 
Pakistani Governments, economies, and civil societies and undercut the 
pull of the insurgency. The diplomatic surge is supporting Afghan-led 
efforts to reach a political solution that will chart a more secure 
future for the region. All three surges are part of the vision for 
transition that NATO endorsed in Lisbon and that President Obama 
reaffirmed last night. As he said, Afghans have to take responsibility 
for their own future.
    Today I want to echo the President's statement and update you on 
our civilian efforts. I also want to answer your questions about the 
road ahead. Because, despite this progress, we have to stay focused on 
our mission. As the President said, ``We have put al-Qaida on a path to 
defeat, and we will not relent until the job is done.''
    First, let me say a word about the military effort. Last night the 
President explained his plan to begin drawing down our forces next 
month and transitioning to Afghan responsibility. I will leave it to my 
colleagues from the Defense Department to discuss the specifics. But 
the bottom line, as the President said, is that we have broken the 
Taliban's momentum. So we begin this drawdown from a position of 
strength.
    Now, let me turn to the civilian surge. We appreciate the attention 
you have devoted to this, because improving governance, creating 
economic opportunity, and supporting civil society is vital to 
solidifying our military gains and advancing our political goals.
    Since January 2009, we have more than tripled the number of 
diplomats, development experts, and other civilian specialists on the 
ground in Afghanistan, and we have expanded our presence in the field 
nearly sixfold. Those new civilians have changed the way we do 
business, focusing on key ministries and sectors, and holding ourselves 
and our partners to higher standards.
    There should be no doubt about the results, despite very difficult 
circumstances: Economic growth is up, and opium production is down. 
Under the Taliban, only 900,000 boys and no girls were enrolled in 
schools. By 2010, 7.1 million students were enrolled, 37 percent of 
them girls. Hundreds of thousands of farmers have been trained and 
equipped with new seeds. Afghan women have used more than 100,000 
microfinance loans. Infant mortality is down 22 percent.
    What do all these numbers tell us?
    First, that despite all the many challenges that remain, life is 
better for most Afghans. The Karzai government has many failings, to be 
sure. But more and more people can see progress in their streets, 
schools, and fields. And we remain committed to fighting corruption and 
strengthening the rule of law.
    The aim of our civilian surge was to give Afghans a stake in their 
country's future and provide credible alternatives to extremism and 
insurgency--it was not, nor was it ever designed, to solve all of 
Afghanistan's development challenges. Measured against these goals, and 
considering the obstacles we face, we are and should be encouraged by 
how much has been accomplished.
    Most important, the civilian surge has helped advance our military 
and political objectives. Let me offer an example.
    Last November, USAID began funding the reconstruction of irrigation 
systems in Wardak province, providing jobs for hundreds of workers and 
water to thousands of farmers. In March, insurgents demanded that the 
people abandon the project and support their spring offensive. The 
people refused. Why should they trade new opportunities for more 
violence and chaos? Frustrated, the insurgents threatened to attack the 
project. Local shuras mobilized and sent back a clear message: We want 
this work to continue; interfere and you will become our enemy. The 
insurgents backed down.
    We have now reached the height of the civilian surge. Any effort of 
this size and scope will face considerable logistical challenges, and 
we are working hard to strengthen oversight and improve effectiveness. 
We have learned many lessons, and we are applying them. And the efforts 
of our civilians on the ground, working in some of the most difficult 
conditions imaginable, continue to be nothing short of extraordinary.
    Looking ahead, as transition proceeds, we will shift our efforts 
from short-term stabilization projects to longer term sustainable 
development that focuses on spurring growth and integrating Afghanistan 
into South Central Asia's economy.
    Now, the third surge is our diplomatic effort in support of an 
Afghan-led political process that aims to shatter the alliance between 
the Taliban and al-Qaida, end the insurgency, and help to produce a 
more peaceful and prosperous region.
    To begin, we are working with the Afghans on a new Strategic 
Partnership Declaration that will provide a long-term framework for our 
bilateral cooperation and bolster Afghan and regional confidence that 
we will not abandon Afghanistan. As the President said last night, this 
will ensure that we will be able to continue targeting terrorists and 
supporting a sovereign Afghan Government.
    It will provide a backdrop for reconciliation with insurgents who 
meet clear redlines. They must renounce violence; abandon al-Qaida; and 
abide by the constitution of Afghanistan, including its protections for 
the rights of women. As I said in February, those are necessary 
outcomes of any negotiation.
    In the last 4 months, this Afghan-led political process has gained 
momentum.
    Twenty-seven Provincial Peace Councils have been established in 
Afghanistan, and the Afghan High Peace Council has stepped up its 
efforts to engage civil society and women, even as it also begins 
reaching out to insurgents.
    Including women and civil society in this process is not just the 
right thing to do--it is also the smart and strategic thing to do. Any 
potential for peace will be subverted if women are marginalized or 
silenced. And the United States will not abandon our values or support 
a political process that undoes the social progress that has been made 
in the past decade.
    But we believe that a political solution that meets these 
conditions is possible. The United States has a broad range of contacts 
at many levels across Afghanistan and the region that we are leveraging 
to support this effort, including very preliminary outreach to members 
of the Taliban. This is not a pleasant business. But history tells us 
that a combination of military pressure, economic opportunity, and an 
inclusive political and diplomatic process is the best way to end 
insurgencies.
    With bin Laden dead and al-Qaida's remaining leadership under 
enormous pressure, the choice facing the Taliban is clear: Be part of 
Afghanistan's future or face unrelenting assault. They cannot wait us 
out. They cannot defeat us. And they cannot escape this choice.
    Special Representative Marc Grossman is leading an active 
diplomatic effort to build support for a political solution. What we 
call the ``Core Group,'' of Afghanistan, Pakistan, and the United 
States, has met twice and will convene again next week. At the same 
time, we are engaging the region around a common vision of an 
independent, stable Afghanistan and a region free of al-Qaida. And this 
effort is paying off. India, Russia, and even Iran are now on board.
    Just this past Friday, the United Nations Security Council voted 
unanimously to support reconciliation by splitting its sanctions on al-
Qaida and the Taliban, underscoring that the door is open for the 
insurgents to abandon the terrorists and seek a better path.
    We welcome these steps. And for the United States, the key 
diplomatic priority--and indeed a lynchpin of this entire effort--is 
closing the gap between Kabul and Islamabad. Pakistan simply must be 
part of this process.
    Earlier this month the two countries launched a Joint Peace 
Commission, with substantive talks at the highest levels. Also 
significant was the full implementation on June 12 of the Transit Trade 
Agreement, which will create new economic opportunity on both sides and 
lay the foundation for a broader vision of regional economic 
integration and cooperation. It took decades to negotiate this 
agreement, including great effort by the late Richard Holbrooke, but 
trucks are now rolling across the border.
    I recently visited Pakistan and had very candid discussions with 
its leaders. The United States has clear expectations for this 
relationship. As President Obama said last night, the United States 
will never tolerate a safe haven for those who would kill our citizens.
    We are looking to Pakistan to take concrete action on the goals we 
share: defeating violent extremism, which has taken so many innocent 
Pakistani lives; ending the conflict in Afghanistan; and ensuring a 
secure, stable, democratic, prosperous future for Pakistan and the 
region.
    There are obviously tough questions to ask. And many causes for 
frustration. But we should not overlook the positive steps of recent 
weeks. Counterterrorism cooperation continues, and several key 
extremists have been killed or captured.
    As I told the Pakistanis, America cannot and should not solve 
Pakistan's problems. They have to do that themselves. But nor can we 
just walk away from this relationship and ignore the consequences.
    Pakistan is a nuclear-armed state sitting at the crossroads of a 
strategic region. And we have seen the cost of disengaging from this 
region before. As Secretary Gates has stressed, we cannot repeat the 
mistakes of 1989.
    That is why it is so important that we have the resources to 
continue implementing our strategy. The State Department is following 
the Pentagon's model and creating a special emergency fund--an Overseas 
Contingency Operations account--that separates normal operating costs 
from these extraordinary war-time expenses.
    Now, we are painfully aware of today's fiscal reality. And I know 
it may be tempting to peel off the civilian elements of our strategy 
that make fewer headlines. But as our commanders on the ground will 
tell you, that would be a serious mistake. The three surges are 
designed to work hand in hand. You cannot slash one and expect the 
other two to succeed. And ultimately, we are saving money--and lives--
by investing now in getting this right.
    And let's not forget: An entire year of civilian assistance in 
Afghanistan costs Americans the same amount as just 10 days of military 
operations.
    So Mr. Chairman, Senator Lugar, I thank you for this opportunity to 
explain our strategy and why we feel it is so vital to America's 
national security. I hope we can work together to implement and improve 
it.

    The Chairman. Thank you very much, Secretary Clinton. We 
really appreciate those opening comments and the opportunity 
now to ask some questions.
    Let me follow up on the Pakistan side of things. Yesterday 
the results of a Pew poll were announced that found most 
Pakistanis consider us an enemy, extraordinarily, I think. Many 
Americans react appropriately with a huge question mark to 
that. Only 12 percent of Pakistanis express a positive view of 
the United States, notwithstanding what we're doing there.
    Balancing that, it's interesting that only 12 percent have 
a positive view of al-Qaeda or the Taliban.
    Now, in many ways the Afghanistan war--and I don't mean to 
insult Afghanistan or say anything pejorative about the efforts 
and what is at stake there--but in many ways the Afghanistan 
war is a side show to the main event, if you will, that is next 
door. Pakistan has 187 million people, Afghanistan 30 million. 
Pakistan has a nuclear arsenal estimated at more than 100 
weapons, which has doubled since 2007, according to public 
unclassified statistics. It has a much more combustible brew of 
terrorist extremists groups than Afghanistan. And its territory 
is being used today to plot attacks against neighbors, as well 
as against America and Europe.
    It is judged that perhaps there are 50 or 60 al-Qaeda 
fighters of some kind--it's hard to really measure that--in 
Afghanistan, versus countless numbers of foreign fighters of 
various nationalities and other terrorists in Pakistan.
    Yet it seems that Pakistan has received less attention in 
regular interagency reviews and strategic planning sessions 
compared to Afghanistan and, more importantly, we have about 
$120 billion a year going into Afghanistan compared to about 
$2.8 billion that went into Pakistan last year, notwithstanding 
the fact it is in economic extremis and has enormous capacity 
needs on several levels.
    I know you're aware of the sensitivity of Pakistanis to 
this disparity--so I wonder if you would share with us the 
impressions you took away from your most recent meetings and 
what you see as a more effective approach--it's fair to say 
that every member of the Senate is asking questions about this 
relationship, and the appropriations people are particularly 
troubled as they try to figure out what's real here in the 
relationship.
    So if you could share with the committee your perceptions 
of the way forward, I think it would be very helpful.
    Secretary Clinton. Well, Chairman Kerry, I think the 
dilemma we face is one well known to you and other members of 
this committee. We have had over many years a difficult 
relationship with Pakistan, in part because starting with 
President Kennedy and the extraordinary feting of the then-
President of Pakistan at Mount Vernon, all the way to the 
present day, we have had a difficult challenge in staying on 
any single course with the Pakistanis.
    As you remember very well, because of their nuclear program 
and other reasons, Congress passed what was called the Pressler 
amendment and we cut off all contact with them and we cut off 
particularly military contact with them. That meant we were not 
involved with their military training and the relationship-
building with their military officers. We also have seen using 
aid on the one hand to try to influence behavior, withdrawing 
it in the face of our disapproval.
    So if a Pakistani official were sitting here, he--and they 
would most likely be he, although I think they are about to 
name a woman Foreign Minister--he would say: ``We don't know 
what you want of us; we don't know what to expect from you; and 
we can't count on you because you're here today and gone 
tomorrow.''
    Now, I would argue that is only part of the story, because 
clearly there is at work in Pakistani society, and particularly 
among the elite, which let us remember manipulate public 
opinion to a great extent to further what they view as either 
national or sectoral or even personal interests--so I think we 
have to recognize that the overriding strategic framework in 
which Pakistan thinks of itself is its relationship with India. 
Every time we make a move toward improving our relationship 
with India, which we started in a great commitment to back in 
the 1990s and it's been bipartisan, with both President Clinton 
and President Obama and President Bush, the Pakistanis find 
that creates a lot of cognitive dissonance. So are you our 
friend or are you their friend? It's all a zero-sum game to 
them.
    What we tried to do in the Obama administration from the 
beginning of the President's term was to look at Afghanistan 
and Pakistan and the entire region as a whole, and not just 
Afghanistan or just Pakistan, but also to try to understand 
what the drivers of certain behaviors were and how we could 
develop a more strategic partnership with Pakistan.
    I remember testifying here back in early 2009, and let's 
remember where we were at that time. The Pakistani Government 
had made basically a deal with the Pakistani Taliban to cede 
territory. They were literally abdicating governmental 
responsibility over large swaths of territory, Swat Valley, 
Bihar, moving toward Islamabad. I remember saying to this 
committee it was just unimaginable to me that a government 
would do that, and we publicly and privately urged them to get 
into the fight, which they did.
    So from their perspective, they have had extraordinary 
losses in the military and in the civilian attacks that have 
occurred by the Taliban. And they are trying to figure out, as 
people do when they feel their survival is somehow at risk, how 
to manage many different factors coming at them all at once.
    That's not to make any excuses for their behavior, but it 
is to try to put it into some explanatory context, because we 
would not disagree at all with Senator Lugar's comment that 
this is a very strategic situation for us, for the United 
States, and we have to do more to get it right. So we're going 
to continue to make clear our expectations. We're going to 
continue to try to work with them across the entire political 
spectrum. We're going to demand more from them. But we are not 
going to expect any miracles overnight. This is a long-term, 
frustrating, frankly sometimes very outraging kind of 
experience, which you know firsthand, chairman. And yet I don't 
see any alternative if you look at vital American national 
interests.
    The final point I would make is I see our involvement in 
Afghanistan, obviously, also as a vital national security 
interest, but I also see it as part of our relationship with 
Pakistan. You know, they would be perfectly happy if we picked 
up and left tomorrow, but what would we get for it and what 
would they do with it? I think the answers to those two 
questions mean that the President's approach, which is this 
steady, careful transition while we try to work the diplomatic 
and political piece of this, which includes Pakistan, is 
exactly the right way to go.
    The Chairman. Well, I think your last point is really the 
principal focus and I think an area where we need to really be 
very intense and focused. I really look forward to following up 
with you personally on that subject, because I think that's 
critical for our withdrawal process for Afghanistan and 
obviously for the stability. I know you know that. So I look 
forward to working with you
on it.
    Senator Lugar.
    Senator Lugar. Secretary Clinton, it was a fortuitous 
coincidence, but the Aspen Institute Congressional group had a 
breakfast this morning with Dr. Zalmay Khalilzad, our former 
Ambassador to Afghanistan. He could make the case better than I 
could, but you have already----
    The Chairman. Senator Lugar, I apologize for interrupting 
you. I just asked one question and obviously we took a fair 
amount of time to answer it and I appreciate that. But I'm just 
reminded that the Secretary needs to be at the White House for 
a debrief there at about 12:15. So if colleagues are OK with 
the idea, we'd probably have to limit the questioning to about 
6 minutes each, if that meets everybody's approval.
    Senator Lugar. Fine.
    The Chairman. Thanks. I appreciate it. Thanks, Senator.
    Senator Lugar. The Ambassador strongly commended the 
initiative that you and the President took to create the office 
of Special Envoy for Afghanistan and Pakistan and the 
appointment of the late Richard Holbrooke to fill that role, 
and likewise now the appointment of Marc Grossman to undertake 
that position.
    Beyond that, he suggested--and I think you have touched 
upon this in your testimony--that Afghanistan is a part of a 
much larger diplomatic pattern and set of relationships. For 
example, whether it be comparable to the Congress of Vienna or 
however one wants to characterize this, you and the President 
might very well try to pull together, not overnight but over 
the course of time, not only the United States, Afghanistan, 
and Pakistan into a congress of sorts, but include also India, 
Russia, and perhaps even Saudi Arabia.
    Maybe that's not the exhaustive list, but it indicates that 
each of these countries for a variety of reasons have an 
interest in each other, and an interest in us. Let's say, for 
example, that at the end of the day, without making 
predictions, the United States was to have a residual force in 
Afghanistan. That would be irritating perhaps to some, maybe 
even to all of the above parties, although for a variety of 
reasons some might find that to be fortuitous.
    But as it stands, our advantage would come really from 
enhancing our relationships with all of the above actors. Not 
only in addition to working simply on the Afghanistan or 
Afghanistan-Pakistan problem from our own standpoint, but 
because there are these unresolved issues of India and 
Pakistan, both nuclear powers, quite apart from Russia and 
China as nuclear powers, and for a variety of additional 
reasons, and finally I would mention Saudi Arabia. Because of 
this reality, maintaining ties with all of these actors is 
important.
    I mention this as, and perhaps you could give a different 
figure, but my understanding is that because the Pakistanis 
have now been more difficult in terms of their cooperation with 
us, only about 60 percent of our supplies for Afghanistan can 
get across Pakistan, as opposed to maybe 90 percent a few 
months ago. We have become more reliant upon Russia and other 
central Asian actors as a region through which we can transport 
goods and services to Afghanistan.
    In short, this is a regional problem that is going to have 
a correspondingly broad diplomatic solution. This doesn't 
obviate the fact that fighting is still going on. As the 
President has pointed out, we still have a lot of work to do 
with our military in the field. You have mentioned the 
military, civilian, and diplomatic surges.
    So I'm not arguing against any of the above, although I 
would suggest, as we all have today, that probably the 
resources of our Nation are not unlimited in this respect. I 
believe it is important to remain cognizant of this as we seek 
solutions to our own budget problems and review our 
relationship not just with Afghanistan, but also Pakistan and 
the other countries that I mentioned. In this context, we need 
to really begin to stress this regional diplomacy idea.
    Do you have any thoughts beyond that to reflect on this 
morning?
    Secretary Clinton. Senator, I agree completely with that. I 
think that the Congress of Vienna is an interesting historical 
example because there was a pact made among regional powers 
that in effect left the Benelux countries as a free zone, so to 
speak. Certainly if we could get to that point with the 
regional powers in South Asia that would not recommence with 
the great game in Afghanistan, that would be a very worthy 
outcome.
    To that end, we have formed exactly the kind of group that 
Ambassador Khalilzad recommended. We do have this so called 
core group of the United States, Afghanistan, and Pakistan. It 
has met twice. It will meet again next week. Richard Holbrooke 
first and Marc Grossman second have been working very hard over 
the last 2\1/2\ years to create this regional approach toward 
solving the problems in Afghanistan.
    I think that the countries you named--India, Russia, Saudi 
Arabia--are all ones that are at the table. In fact, the most 
recent meeting of all of the countries that had an interest was 
actually hosted in Saudi Arabia. So we are bringing many of 
these countries to the broad negotiations about the way 
forward.
    Now, there will be some other actors who you cannot ignore, 
including Iran. Iran is a big player in the region and has a 
long border with both Afghanistan and Pakistan. How they are 
involved and what they're willing to do we don't, obviously, at 
this point know.
    Uzbekistan has a lot of worries about what goes on in 
Afghanistan, and you're well aware that one of the issues we're 
all watching for is how the Tajiks and the Uzbeks and others 
respond to the diplomatic outreach. I was in Uzbekistan a few 
months ago and the government there is very worried about what 
happens.
    So there are a lot of players who can act independently or 
in concert with one another. But you are absolutely right, 
Senator, the only way we're going to get a political resolution 
is through this kind of intensive diplomatic outreach. That's 
what we're engaged in. I know you understand it, but I do hope 
that everybody in the Congress and the press and the public 
understands that you don't end wars by talking only to people 
with whom you agree or who are good actors. You end wars by, 
unfortunately, but the fact is, talking with people whose 
interests and values are often very much opposite of yours.
    But what you've described is what we are in the midst of 
working on.
    Senator Lugar. I appreciate that very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you so much.
    Madam Secretary, I predicted you'd be a great Secretary of 
State. I want you to know that I think you are. We're proud of 
you and we thank you for all your work. You're just giving this 
all you have. The issues are so difficult.
    I'm going to ask you about the pace of our drawdown from 
Afghanistan and then I'm going to ask you a little bit about 
the women. And I'm so glad you included them in your opening 
remarks. So let me just lay this out.
    Everyone at this table who was in the United States Senate 
after we were attacked by al-Qaeda voted to go to war and get 
bin Laden and decimate al-Qaeda in Afghanistan. I think it's 
fair to say, with the incredible leadership of our President 
and our amazing Special Forces, finally getting bin Laden was a 
huge moment for us.
    According to Leon Panetta--and it was reiterated by our 
Chairman Kerry--we're down to about 50 al-Qaeda in Afghanistan. 
So as I look at it, before I vote to go to war, every one of us 
here, that's the most difficult vote you ever make. I feel that 
we did what we said we wanted to do. And now, as I hear the 
President's words, I agree with everything he said, and you 
reiterated today. You said, and he said yesterday, it's time 
for Afghans to take control of their own future.
    I think there's a big difference in doing that in 18 months 
or 12 months and waiting until 2014. So I want to ask you a 
question about that when I get to the end of this.
    We have trained 290,000 security forces in Afghanistan, and 
I could break it down: 126,000 police, 164,000 army. We have 
spent $30 billion training them. Now, I'm the chairman of the 
Environment and Public Works Committee. You served on that 
proudly. We are desperately seeking $6 billion to keep the 
highway program going for a year, and people are saying: Oh my 
goodness, $6 billion. And we're spending, well, $12 billion a 
month right now on Afghanistan, it's my understanding, and 
Iraq, a month. I need $6 billion for a year to keep people 
working.
    So this issue of the drawdown, it's really a matter of not 
only are the lives of our soldiers, but everything else, the 
money, and the fact that Karzai has said on many occasions this 
is a sovereign nation. He's said--his last quote I have is: 
``The Afghan people's trust in the Afghan Army and police is 
growing every day, and preservation of this land is the job of 
Afghans.''
    So you put it all together and you wonder why we're looking 
at 2014. I was hopeful that this surge that was essentially 
temporary, I was hopeful that 33,000 could be moved out this 
year.
    Having said that, I respect the President. I know he's got 
everybody telling him their ideas and we have to be humble if 
we don't agree. But I think it's important to state that I 
think this is leaving 70,000 troops.
    So my question to you is, What are those 70,000 troops 
going to do? I thought since we have trained all these Afghans, 
we'd turn it over to them and that we would shift to the 
counterterrorism mission, which will help us with Pakistan, 
which is so dangerous, as opposed to counterinsurgency. So 
that's the first question.
    The second question has to do with the women and then I'll 
stop and have you answer. I had the distinct honor and 
privilege of meeting with a delegation of Afghan women. You 
know how amazing they are, how courageous they are, how brave 
they are. They risk everything to come forward. We remember the 
days of the forced burkas and all those things, and the Taliban 
leading the country. Just, the women suffered. And yes, I'm so 
proud of the progress they've made because of what we've done, 
frankly, along with them.
    So I said, what do you need from us? They were very clear. 
They didn't ask for one more troop. They didn't even ask for 
one more day of war. They don't want that. They want a seat at 
that peace jirga, at that reconciliation. So I said: ``How many 
seats do you have?'' They said: ``9 seats out of 70 slots.''
    Now, I told them I'd do everything in my power, including 
writing legislation, which actually Susan Davis in the House 
wrote, to tie our aid to their seat at the table. How can we 
have a situation that's fair? The people that got hurt the most 
were those women and those girls. And to have so few of them at 
the table is just not right.
    So I would ask you, what are we doing to push forward to 
get more women at the table? And also, can you explain to me 
what are those 70,000 troops going to be doing until 2014?
    Secretary Clinton. Well, Senator, first on the troop 
withdrawal. I think that, as the President explained last 
night, the surge which you remember he announced in December of 
2009 at West Point, was intended to provide additional military 
support for the troops we already had there and to accelerate 
certain aspects of the mission, like greater training of the 
Afghans, which had been languishing and now has quite impressed 
the trainers on the ground with the ability to get a force that 
is going to be sufficient.
    So when the surge leaves, as the President announced last 
night, we will be back to where we were when he announced it. I 
think it's a bit of a misnomer to say then we can do CT or 
COIN, because in effect we've been doing counterterrorism the 
whole time. We've been targeting high-value targets. We have 
been going after Taliban leaders. And we have been using the 
extra troops to hold territory that was finally taken back from 
the Taliban.
    So what the remaining troops will do for the remaining time 
they're there, because remember we have a hard stop, along with 
our NATO ISAF allies of 2014, is they will be continuing 
training, they will be continuing mentoring the Afghans, who 
are going to be taking the lead responsibility, they will 
continue in combat to some extent, but in a much more limited 
field.
    It is the assessment of the President and those of us in 
the administration, along with our military commanders, that 
this is the right pace of withdrawal. As the Defense Department 
will tell you, we're on a downward trajectory of military 
spending because of the drawdown in Iraq and because of the 
drawdown now in Afghanistan. So that the Defense Department 
will be spending many billions of dollars less, even in the 
next 18 to 24 months.
    But I think that the way this has been laid out, along with 
our allies, because remember the decision at Lisbon was agreed 
to unanimously by everybody, is the right way to proceed, and 
there will be continuing missions that will be important as we 
transition to Afghan lead.
    With respect to the women, I totally share your view that 
the Afghan women I've met and worked with are just among some 
of the most courageous people in the world. Some of them 
withstood just horrific treatment during the Taliban and the 
warlord years, never lost their spirit, kept educating girls, 
kept providing health care, kept standing up in their own way 
against the oppression.
    I think it's important that they have more seats at the 
table. It's something that I agree with and have been pushing 
on. There are many different interests that have to be 
accommodated in Afghanistan, and if you look just at the people 
with the guns, the men with the guns, who have to have some 
stake in the outcome, they are obviously a big concern to the 
Afghan Government and to us. But we know from long work that 
I've done over many years now and which was embodied in United 
Nations Security Council Resolution 1325, if women are not part 
of the peacemaking the peace will not keep to the same extent 
that it would have otherwise. We saw that in Central America. 
We've seen that in African conflicts. And we will see it in 
Afghanistan.
    So it's not only because we admire these women that we want 
them to have a place at the table. It's because they have to be 
part of making a lasting resolution in Afghanistan.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Madam Secretary, I thank you for your service. I know we 
had a nice conversation out back. Subject for another day, I 
don't know how the administration could have purposely more so 
created unnecessarily a conflict over Libya the way that it 
has. But as usual, your frankness and transparency is 
disarming, and I look forward to that conversation happening at 
another time.
    But I do appreciate your service and the way you handle 
yourself and the tremendous effort you put out on behalf of our 
country.
    Let me ask you, do you 100 percent agree with what the 
President had to say last night?
    Secretary Clinton. Yes; I do.
    Senator Corker. In every facet?
    Senator Corker. Yes; I do, Senator. This was a very open, 
candid discussion within the national security team. Obviously, 
people forthrightly presented their own views. It will not 
surprise you that the views ranged across the spectrum about 
what should be done and what should not be done. But I think 
that the President, with his decision has hit the mark. He has 
answered what is a very legitimate concern, not only of this 
Congress but of the American public, that this has been a very 
long conflict for the United States. Our own internal domestic 
needs are very pressing.
    At the same time, we have made a difference in the last 
2\1/2\ years. It's not been at all easy and it's been at the 
loss of many young Americans. But he made the right decision.
    Senator Corker. I got it. I don't want to be rude. I just 
know I have a limited amount. So you agree.
    Secretary Clinton. Yes, sir.
    Senator Corker. So the nature of--I think many of us were 
concerned about, so what is the nature of what it is we're 
going to be doing on the ground. I think what you've said today 
is we're going to continue with lesser troops on a 
counterinsurgency, not a counterterrorism effort.
    Secretary Clinton. No; both. I was trying to make the point 
that we've been doing both. Every night, special operators go 
out. Every night we are targeting people in a counterterrorism 
effort, and we're holding territory. So we'll continue doing 
both.
    Senator Corker. And those same Navy SEALs that we're so 
proud of I know do an outstanding job every night doing the 
counterterrorism piece. But the counterinsurgency piece leads 
us continually toward a, quote--and I know this is an old term 
in your perspective, but--it's continually doing the nation-
building, state-building kinds of things in Libya that I think 
many of us are concerned about being able to sustain, not only 
while we're there, but after we leave.
    You're comfortable with continuing, quote, the ``nation 
building''--I know you use a different term; it's the one I 
understand--effort that is taking place in Afghanistan?
    Secretary Clinton. Well, I am comfortable with our 
continuing to interact with and support Afghan leadership at 
all levels. For example, Senator, our assessment is that about 
75 percent of the governors now that have been appointed in the 
last year or two are actually performing well. That was not the 
case 2\1/2\ years ago. Part of the reason we think they're 
performing well is that they have been mentored by both 
military and civilian personnel.
    I don't think we--I know that so-called nation-building 
rightly raises a lot of questions in people's minds. That's not 
what we think we're doing and that's not our intention. But 
what we are doing is, a young captain or a young Foreign 
Service officer getting in there and helping these people know 
what it means to actually run a government, make decisions, I 
think is in our interests, because it gives them a stake then 
in the kind of future we're building with our military efforts.
    Senator Corker. I think we end up with a country, because 
of the distortive cultural things that we're doing--some of 
which are very good, and I thought you had a very nice 
exchange; some of which, though, create a situation where 
Afghanistan is a supplicant or Afghanistan doesn't exist ever 
without United States involvement. I see that as what we're 
doing there, and obviously that's concerning.
    Let me move to the last point. I know I'm getting close on 
time. I've been here 4 years and 5 months and our reasons for 
being in Afghanistan have continued to evolve. One of the main 
reasons we're there is because we're there, at this point. 
There was a concern that the partnership--that our partners, 
the Afghans, the Pakistanis, would not view us as a reliable 
partner if we left. That was sort of the code a couple of years 
ago, I think, about the time the Holbrooke doctrine, if you 
will, came into play.
    So we created this AfPak doctrine and we have this 
partnership under way that you're talking about. One of the 
reasons we continued to be there the way that we have is we 
didn't want to destabilize Pakistan by leaving behind a 
destabilized Afghanistan. But now we understand that--and of 
course, there is no Pakistani voice. It's not a country that 
speaks with one voice. It's not really ruled. It's ruled by 
disparate entities, which is one of the problems we have with 
them.
    But now we're understanding that many of the leaders of 
Pakistan really don't want to see a stabilized Afghanistan. So 
our interests, while we've given them billions and billions of 
dollars of aid, is different from ours.
    Then what struck me was your last comment, and that is that 
Pakistan would just as soon we leave Afghanistan immediately. 
Now, that--from my perspective, that's 180 degrees from where 
we were 2 years ago under the administration, which I'm not 
criticizing. Everybody's had trouble with Afghanistan.
    But if you will, reconcile that with me?
    Secretary Clinton. Yes. Well, I'll start there and then I 
want to circle back if I have time to the future in Afghanistan 
and its present status as kind of a supplicant, in your words.
    I think that Pakistan wants to be sure that whatever 
happens in Afghanistan will not affect its strategic interests. 
It wants what it calls strategic depth in Afghanistan. By that 
it means, No. 1, it wants a regime in Kabul and it wants a 
border that is not going to challenge its interests. So it's 
particularly focused on having the Pashtun population on the 
Afghan side of the Durand Line and the Pashtun population on 
the Pakistani side of the Durand Line not coming together in 
any way that threatens Islamabad.
    So it has in the past invested in a certain amount of 
instability in Afghanistan. It also does not want Afghanistan 
to become a satellite of India. India and Afghanistan have a 
historical affinity. Historically, Afghanistan has supported 
elements within Afghanistan which Pakistan has seen as 
inimicable to its own interests.
    So if Pakistan could be assured that what would be left 
would be favorable to and even in their view subservient to 
Pakistani interests, that would be fine with them. The Indians 
aren't going to sit around and accept that. The Uzbeks and the 
Tajiks are not going to sit around and just accept that.
    So part of what we have been doing is to try to build up 
capacity within Afghanistan so it is strong enough to defend 
itself against all comers, but without falling back into civil 
war, because particularly the Northern Alliance constituents 
believe that they are threatened by Pakistan and the Pashtuns.
    So when I say, yes, they'd be happy if we left as long as 
it ended up the way they wanted, I think that's just an obvious 
statement. But it won't end up that way in the absence of some 
kind of political resolution and without the strength of 
ability within the Afghan Government to defend itself going 
forward.
    So you're right, Senator, this is a Rubik's Cube of 
diplomatic and political complexity. I'm sure you do hear 
different things from different members of the administration 
or very well-informed Members of Congress, but I don't think 
that they are necessarily contradictory. I think they are all 
part of what is an incredibly complex situation that we're 
trying to get our arms around, and attempting to move in a 
direction that will leave a stable Afghanistan, not a perfect 
nation state, but a stable Afghanistan, with the interests to 
be able to defend itself against both overt and covert 
challenges to its security.
    Finally, I think it's important for us to maybe take a step 
back and look at other countries that the United States made 
investments in over long periods of time. There were different 
historical reasons, we all know. But you look at the decades of 
our investment in South Korea and you look at the coups that 
took place. You look at the stop-and-start efforts of 
democracy. You look at the massive corruption. You look at the 
thousands of American troops that we kept there. And we not 
only provided military protection against North Korea. We also 
in effect helped to model and support what is now a vibrant 
democracy and a very strong economy.
    Can we look back and say, you know, we could have left in 
1967 or 1979 or 1984 and let them fend for themselves, knowing 
that they were in a very dangerous neighborhood? I think it's 
been in America's strategic interests and in America's values 
to have stood the test of time here. I think it's not a 
comparable situation, but I do believe that looking at 
historical examples to see where American investment persevered 
is important.
    Senator Corker. Thank you.
    The Chairman. I do not want to diminish at all the amount 
of time that we're able to apply to these answers because I 
think it's very important and it's very interesting. But I do 
have to note that we've got about 9 or 10 Senators left and at 
6 minutes that takes us into the Secretary's White House 
briefing time.
    Most of the questions have taken around 10 minutes rather 
than the 6 minutes on both sides.
    Secretary Clinton. Well, that's my fault mostly.
    The Chairman. Madam Secretary, it's important to get these 
on the record. I regret that we have the back end pressure. But 
hopefully everybody can try to hold to 6 minutes.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, as a long-term supporter of yours, I think 
you're an extraordinary Secretary of State at an incredibly 
momentous time in history, where there are tectonic shifts 
taking place
in different parts of the world. So I very much appreciate your 
service.
    But that does not assuage a deep and nagging set of 
concerns I have on the course that we are on, both as it 
relates to where we send the sons and daughters of America to 
fight and sometimes die, and how we spend the national treasure 
of the United States. So I want to express those concerns that 
I have.
    We went into Afghanistan for very clear reasons; reasons 
that I supported when I was in the House of Representatives. 
These were the perpetrators of September 11 that you and I 
vividly understand from the number of citizens that we lost, 
both as Americans and from our respective States. This is where 
Osama bin Laden was at the time. This is where al-Qaeda was. 
They were the perpetrators.
    Bin Laden is dead. There are less than 100 al-Qaeda 
fighters in Afghanistan. I look at this $10 billion a month in 
a counterinsurgency effort to prop up a government that I 
believe is corrupt, and the fact that we will have spent about 
$38 billion by the end of the next fiscal year to prop up and 
to train an Afghan security force that is composed of about 
290,000 individuals to fight 20,000 Taliban fighters--that is a 
14 to 1 ratio--in a country where we have spent $19 billion in 
development assistance, which has come under criticism by a 
staff report of this committee and by the Commission on Wartime 
Contracting.
    I listen to President Karzai talk about us as an occupying 
force and I see a country sitting on a trillion dollars of 
mineral deposits, including lithium that could fuel its own 
prosperity, and take care of its own security. And when the 
first contract is let out, it's let out to the Chinese, who 
have not shed one drop of blood in behalf of Afghan freedom.
    And I just say to myself, that while I appreciate where the 
President started last night, we do not seem to be 
transitioning out in a way that is in the national security 
interest of the United States. I agree with Senator Lugar. If 
we were to assess and redistribute our worldwide military and 
diplomatic assets without reference to where they are today, 
we'd be hard-pressed to say that we should spend $120 billion 
in Afghanistan and have 100,000 troops.
    Then I turn to Pakistan. And I just got an answer today 
from Ambassador Grossman to a letter several colleagues and I 
had sent you expressing concern, especially after bin Laden's 
capture and killing in Pakistan. And the letter says we see no 
evidence to indicate that anyone at the highest levels of the 
Government of Pakistan knew that bin Laden was living in 
Pakistan.
    Now, that may be true, but I don't think there's an 
American who believes that. And I look at it in the context of 
assistance: Pakistan is now the third-largest recipient of U.S. 
security assistance, $2.7 billion in 2010 alone. That's a 140-
percent increase since 2007. Someone had to know bin Laden was 
there or at least a high-value target, and I am also concerned 
with reports of Pakistan receiving intelligence that we 
reportedly gave them in mid-May about insurgent bomb factories 
in the tribal regions that was leaked and the facilities were 
abandoned before military strikes could take place.
    I wonder when I see the Pakistani Intelligence Service 
arresting Pakistanis who provided information that led to our 
finding bin Laden. And I say, wow, $2.7 billion of U.S. 
taxpayer moneys.
    Do we not see the need to alter the civil development 
assistance and our security assistance, in a way that can have 
me say to the fiduciary responsibility I have to the taxpayers 
of my State and this country that we are going to have a much 
better result?
    Secretary Clinton. Senator, I read the speech you gave 
recently, I think it was on the floor, and you have echoed some 
of the main concerns today. I can only tell you that those 
concerns are ones that we take very seriously.
    With respect specifically to bin Laden, we have looked very 
hard and we have scrubbed all of the intelligence that we have. 
Certainly, in a classified session we can go into greater 
detail. But the conclusion Ambassador Grossman gave you in the 
letter is the one we have reached. We did not start out there. 
We were not sure what we would find. But we do believe that at 
the highest levels.
    However, I have said and I know other members of the 
administration have said we do not in any way rule out or 
absolve those who are at lower levels, who may very well have 
been enablers and protectors.
    Now, the fair question is, well, were they protecting their 
higher ups? Could be. Was it one of these kind of a wink and a 
nod? Maybe so. But in looking at every scrap of information we 
have, we think that the highest levels of the government were 
genuinely surprised. If they had reason to believe he was 
there, they believed that he was certainly in the tribal areas, 
protected by the Taliban or by the Haqqani Network, by 
somebody. But they did not know and we have no reason to 
believe that they are running some massive deception on us to 
that point.
    But your larger concerns, Senator, are ones that are 
totally legitimate. All I can tell you is that, despite the 
difficulties that we face in our relationship with Pakistan, it 
is our conclusion that we have to continue to try to pull and 
push to get it more right than wrong. So for example, when it 
comes to our military aid, which you pointed out is quite 
significant, we are not prepared to continue providing that at 
the pace we were providing it unless and until we see certain 
steps taken.
    So we're trying to play this orchestra the best we can, 
where we look in one direction and say to those who we think 
are largely responsible for the difficulties we know that exist 
within Pakistan, you can't continue doing that, but on the 
other hand we have a democratically elected government which 
has made some courageous decisions despite the challenges. 
They've made some courageous economic decisions. They have made 
some courageous civil decisions in terms of pushing the 
military to go after the Taliban. And in my very emotional 
meeting with President Zardari, he basically said: ``Look, al-
Qaeda was in league with the people who killed my wife; I would 
never have turned a blind eye if I had known anything.''
    Now, is it a strong democratic government? No. But it is a 
step in the right direction. Again, I go back to historical 
precedent. We've been there before. We have supported 
governments and supported countries that just drove us crazy 
over a long period of time because they just didn't quite grasp 
what we thought was necessary for democratic institution-
building and rule of law. Some of them have worked out well 
over time, but it took a lot of patience.
    Senator Menendez. Thank you, and I look forward to 
following up with you on Afghanistan and how we're spending our 
money.
    Secretary Clinton. I would like to do that.
    The Chairman. Thank you, Senator Menendez.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Secretary Clinton, thank you so much for coming today. I 
think everyone here is expressing frustrations. When I first 
came here and looked at all this, I was struck by what a 
Rubik's Cube this is, and perhaps a Rubik's Cube that you can't 
ever totally resolve.
    It's frustrating when you talk with the American people. 
They ask me, well, explain our strategy, explain our 
objectives. And it's very, very difficult to do. For one 
reason, it's been changing. We are becoming more realistic. I 
notice what's crept into our dialogue now has been that it'll 
never be perfect, and thank goodness we've finally recognized 
that. That clearly is a fact of life.
    The frustrations with the two governments in both countries 
is just overwhelming. We started in Afghanistan with motives, 
as everyone said, that were great. And we always hear people 
talk about winning in Afghanistan. Well, we won a long time 
ago. Our objective there was to beat al-Qaeda. We did it. 
Reference has been made that there's less than 100 of them left 
in the country. So we're left fighting the Taliban, who will 
fight us for centuries if we are so inclined. I mean, they 
fight whoever is there.
    So we've got to find--we've got to find a way to articulate 
what the objective is and then move on.
    My question that I'd like you to focus on--and please don't 
take this as being argumentative or anything in that regard. 
This is very, very pragmatic. When we leave Afghanistan--and we 
will at some point in time--we're going to be left with the 
Karzai government, I suppose, and a military and security 
forces that should hold all this together. One of the problems 
I have is, from a purely, purely pragmatic standpoint, the 
just--just the salaries for those security people far exceeds 
the gross national product of the country, and as I understand 
it by multiples.
    How is this going to work? Because clearly there's got to 
be security forces. There's no possible way that Karzai can 
hold on, or whoever it is that's his successor. There's no way 
that you can keep the fragmented country like it is together 
without very substantial payments to security forces. I just 
don't see how that's possible.
    I mean, you hear the talk about their natural resources and 
what have you. Right now they seem to be relying on the poppy 
for their income. From a purely pragmatic basis, what's your 
vision of how they're going to keep enough security forces paid 
and on the ground to hold this whole thing together?
    Secretary Clinton. I think it's a very fair question, 
Senator, and I'd answer it with the following points. First of 
all, you're right that they are going to have to have a 
security force to protect the country, and that's what we've 
been trying to train up. It's not only the United States. We 
have a number of partners who have been contributing to the 
training and the paying of these security forces. So the formal 
Afghan military and Afghan police forces will be a continuing 
source of assistance provided by a number of countries, and it 
will be something that is a lot cheaper than what we're doing 
now and is going to be essentially continuing to try to 
maintain a security presence there.
    But there is a trust fund for paying the security forces 
that countries like Japan that don't have any military on the 
ground have contributed to. So that's one of the issues we're 
going to be negotiating as we go forward.
    Second, a lot of the security is going to be provided by 
local militias, local police. General Petraeus has invested a 
lot of effort in helping to create what are essentially village 
patrols, so that people will be trained and armed to protect 
themselves, not connected to the national military or police 
force. We think that's a very good line of defense and that 
doesn't really cost us anything once the initial investment is 
made because people themselves will pick that up.
    Third, we do think that there is an opportunity for 
Afghanistan to fund some of its own security needs--the 
reference to the mineral wealth and some other sources. So we 
are discussing that right now with the Afghan Government. At 
the present time, President Karzai has said he will not stay in 
office, which we think is the appropriate decision, that he 
will leave when his term is up. So there will be a great effort 
made to ensure that there's a free and fair election and, 
assuming there can be such an election, a lot of this 
responsibility will fall to whoever succeeds him.
    So we will continue to support Afghanistan and its 
security, but we're going to be doing it on a conditions-based 
analysis.
    Senator Risch. I think that's probably the best answer 
there is to that, and I really appreciate that. But I would 
really urge someone to sit down with a pad and a pencil and 
come up with some specific numbers, because the frustration 
here is obvious. We're not going to continue to pour the money 
in there for that.
    The numbers I've seen, the estimates I've seen, are just 
staggering. So I'd like to see somebody do that.
    Thank you, Mr. Chairman.
    Secretary Clinton. Thank you, Senator.
    The Chairman. Thank you. Thank you very much, Senator 
Risch.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Clinton, I think that there is total agreement on 
this committee how proud we are that you represent our Nation 
globally. You give great credibility to the position of 
Secretary of State and the leadership. And we thank you for 
your service.
    I also want to applaud your efforts, working with Secretary 
Obama and Secretary Gates, of understanding the importance of 
national security being more than just our military, but also 
including our civilian and diplomacy. I couldn't agree with you 
more that these are three tools that are in our toolbox that 
need to be deployed in a coordinated way.
    But let me just get to the resources for one moment. The 
amount of resources that we are currently expending on the 
military aspects of Afghanistan is really draining our capacity 
as a nation in so many different areas. As has been pointed out 
by several members of this committee, that if we were using an 
allocation today as to our greatest risk I don't think we would 
be spending as much as we are in Afghanistan.
    You make a very good point about 1 year of our civilian 
efforts in Afghanistan is equal to 10 days of our military. 
What a lot of us would like to do is free up more of that 
military funds at a faster pace than the President announced 
last night, to give you additional tools to be able to use our 
civilian side to advance our objectives. So I think that's one 
of the concerns that we have as to resources.
    There's been discussion among many of us on both sides of 
the aisle that, yes, we understand the deficit, we understand 
we're going to have to make tough choices on the deficits, but 
we also have to find a source of funds to move forward in areas 
that are important. And if we can save money on the military 
side, at least part of that could be invested in the civilian 
side of our national security equation, which we think could be 
used very effectively.
    Which really brings me to the question of accountability. 
You've addressed that several times in response to questions 
and also in your statements. But I want to get to Pakistan for 
one moment, because the chairman mentioned our 12 percent 
popularity among the Pakistan people. I don't want to 
overestimate the importance of being popular in the countries 
that we operate, but I don't think we should underestimate 
that.
    If we're trying to advance values that are consistent with 
America, that are universal, and there's such a low opinion of 
the United States, it makes it difficult for our values to have 
the ability to be effective in that country. So I think we need 
to be concerned about it.
    Also in Pakistan, we have the unusual issue that we're 
supplying a lot of money to a country where there is clear 
evidence that their intelligence agency, ISI, is assisting and 
funding a terrorist group, LET, and that's inconsistent with 
our laws.
    So I guess my question to you is, as we share your vision 
of a more robust U.S. involvement globally on the civilian side 
to deal with our national security interests, we have to have 
accountability, even with countries that we have strategic 
interests, because if we don't I think it really affects our 
credibility as a nation. So how do we reconcile that?
    Secretary Clinton. Well, that is, Senator Cardin, a very 
difficult question to answer. From time to time, we do a lot of 
business around the world with governments that don't meet our 
values, don't share our interests, but with whom we believe we 
have strategic security concerns. It is not easy to explain to 
people and it is something that we're constantly evaluating. 
There's nothing new about it in this administration. It goes 
back to the founding of our country.
    But I guess I would say that we do try to marry 
accountability with our objectives, and we do it in a way that 
tries to get the attention of the leaders whom we are working 
with and trying to influence. There's always the tough 
question, how far do you go? I think in retrospect many people 
who know a lot about Pakistan would say the Pressler amendment 
went too far. Now, at the time it seemed absolutely clear that 
we needed to come down with a big hammer of accountability 
because of the behavior that we disapproved of.
    So trying to modulate this, to influence and manage 
expectations and actions, is an ongoing part of the diplomatic 
process. I guess I would just conclude by saying specifically 
when it comes to Pakistan there is a ledger and on one side of 
the ledger are a lot of actions that we really disapprove of 
and find inimicable to our values and even our interests. Then 
on the other side of the ledger there are actions that are very 
much in line with what we're seeking and want. So we're 
constantly balancing and weighing that.
    We've made the assessment in this administration that, 
despite the challenges, we have to continue to engage, we have 
to continue to work with, and we have to continue to try to 
influence Pakistani behavior.
    Senator Cardin. I'll use my last 30 seconds to suggest that 
I think all of us want to engage Pakistan. We're not asking to 
isolate America from Pakistan. But I do think that our policies 
have not been as effective as they need to be in developing the 
type of partnership in that country that will advance our 
values, and that the popularity issue speaks to whether we have 
effectively used our civilian efforts in a way that will 
advance more longstanding gains for the United States.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Good morning, Madam Secretary.
    Secretary Clinton. Good morning.
    Senator Rubio. I understand and know and expect that our 
military folks will be supportive of this decision and 
implement it. But could you share with us, is it possible to 
share with us, what was General Petraeus' recommendation with 
regards to the timetable and the numbers?
    Secretary Clinton. Senator, I'm not going to be able to do 
that, but I can tell you that the decision that the President 
made was supported by the national security team. And I think 
it would be totally understandable that a military commander 
would want as many troops, for as long as he could get them. 
But any military commander with the level of expertise and 
experience that General Petraeus has also knows that what he 
wants is just part of the overall decision matrix, and that 
there are other factors at work.
    So at the end of the day, I think the President made the 
right decision. You've heard from colleagues here. Those voices 
were heard within the national security apparatus: Out now, out 
by the end of the year, out by the beginning of the year. Then 
there were those who said let's wait until the end of the next 
year. What the President decided was to get through the next 
fighting season, in effect, which we think should be 
sufficient.
    Senator Rubio. That leads me to my next question. What was 
the logic behind the September 2012 date for the full surge 
pullback?
    Secretary Clinton. I think the logic, as the President 
explained last night, is that when he announced the surge he 
said he would start withdrawing it in July 2011 and that he 
would try to recover the surge within a period of time that 
reflected the amount of time it took to put the surge in. It 
took about 18 months to put the surge in. It'll take about 18 
months to get the surge out. But that giving the commanders the 
opportunity to stage the withdrawal in the midst of another 
fighting season I think is what persuaded the President that 
that was the right place for him to be, despite, frankly, 
having lots of competing opinions coming at him from all sides.
    I would also just add, Senator, because I do think it's 
important to note, that when the President became President 
there were waiting on his desk requests for additional troops. 
At the time President Obama was inaugurated, there were, give 
or take, about 30,000-plus American troops and there was no 
doubt that our attention had shifted to Iraq in the preceding 
years, and that in Iraq there had been a negotiated agreement 
with the Iraqi Government by our government, the Bush 
administration, as to when our troops would come out.
    So the President looked at that and accelerated it to some 
extent, but basically the framework was there.
    With Afghanistan, there was nothing. There was an open-
ended commitment. There were evidence of our losing ground to 
the Taliban. So he not only put in the surge; he put in an 
additional 38,000 troops. So I think when all is said and done 
we will still have more than twice as many troops as when he 
took office in January 2009.
    Senator Rubio. You discussed an open and frank discussion 
process that took place in arriving at this decision. On one 
hand, clearly we can't be there forever, and in fact there has 
to be a strategy to begin to transition over to the Afghan 
people and Afghan control increasingly so, and that's an 
ongoing process that I think is always being weighed.
    On the other hand, this is a region that I've heard best 
described as a region where folks like to hedge their bets. I 
think that's true within Afghanistan, with both tribal leaders, 
local leaders, government leaders, who sometimes question how 
committed the United States is, and so perhaps they hedge their 
bets. And it's even more true, I think, with Pakistan. You 
alluded to that earlier in some of your statements, where you 
described that at least some of our difficulties in getting 
Pakistan to commit to help us on some things can be explained 
by their stated doubt about our commitment.
    How did you weigh that? How was that weighed in the 
decisionmaking process? In essence, how did we arrive at a 
strategy to begin to transition without creating a situation 
where people are afraid to work with us because they think the 
Taliban's going to come back, or Pakistan decides they're not 
going to work with us because they need to hedge their bets and 
keep some of these people happy? How was that discussed? How 
was that handled?
    Secretary Clinton. Well, you're absolutely right, Senator. 
That was a source of a lot of discussion, because clearly our 
goal here is to further our objective of having an Afghanistan 
that can defend itself and provide sufficient security to fend 
off all of the regional and other players that wish to 
influence it.
    It was our assessment that we are balancing two competing 
concerns. On the one hand, Afghanistan has to take its 
responsibility seriously and it has to be prepared to really 
instill in its own people the obligation of self-defense and 
security. So the longer they felt that they didn't have to 
accept that responsibility, the longer the timeline would be 
pushed out. So the Lisbon decision of 2014 was the first 
signal, agreed to by the Afghans, and the President's 
assessment that we would have to begin to show our resolve to 
withdraw in order to get them to really face up to their own 
responsibilities is the second part of that.
    At the same time, we believe that there will be some 
continuing presence of NATO in Afghanistan following 2014, 
which is in the process of being negotiated through the 
strategic partnership declaration, so that there will be an 
American presence to continue CT operations, to support the 
Afghans when needed, to send a signal to the region that 
there's not a free shot available here.
    So we think we have tried to balance all these competing 
concerns. But historically this is a region where hedging is an 
art form, and what we're trying to do is to say through our 
diplomatic efforts there's going to be a resolution here where 
all the players are going to be watching each other, where 
there's going to be--I'll just be very, very clear about this. 
Pakistan knows that if Afghanistan gets too worried by what it 
is or isn't doing, it will turn to India, and we know that 
India supported the Northern Alliance in previous times.
    So there are lots of moving parts here to try to put 
together, so that everybody is checkmated from hedging that 
could upset the Afghan security profile that we're trying to 
leave them with.
    The Chairman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your testimony and your 
extraordinary work, not only on these difficult issues, but on 
so many others. Let me commend you as well on the work that you 
have done with me and with others on focusing the Pakistani 
leadership, their government, on a critically important issue 
that involves the strategies to prevent the killing of our 
troops by way of IEDs that come from and have their origin in 
the ammonium nitrate which is flooding into Afghanistan from 
Pakistan. So I appreciate your work on that and your reporting 
back when you raised the issue with the Pakistani leadership.
    I have just one basic question. It's a focused question on 
the certification that you must provide pursuant to the 
Enhanced Partnership with Pakistan Act. We know it by the 
common name ``Kerry-Lugar-Berman.'' Let me just set forth the 
predicate for the answer. I'm just reading in pertinent part 
with regard to the certification, section 203: ``The 
certification required by this subsection is a certification by 
the Secretary of State, under the direction of the President, 
to the appropriate congressional committees that''--and then, 
in pertinent part: That Pakistan has ``demonstrated a sustained 
commitment to, and is making significant progress''--
``significant efforts,'' I should say--``toward combating 
terrorist groups.'' That's where that section ends.
    Then the second part: ``In defining what that progress is, 
the following can be taken into consideration: No. 1, ceasing 
support, including any element within the Pakistani military or 
its intelligence agency, to extremists or terrorist groups.'' 
That's the pertinent part of No. 1.
    No. 2: ``Preventing al-Qaeda, the Taliban, and associated 
terrorist groups, such as LET and others, from operating in the 
territory of Pakistan.''
    So that's the basis of the certification. I just ask you a 
fundamental question, even though I know the next certification 
isn't due yet and you have made one I guess as of the end of 
2010. But is it your current assessment that Pakistan, the 
government of Pakistan, has met these criteria outlined in 
section 203 for continued U.S. assistance?
    Secretary Clinton. Senator, you're right, I provided 
Congress with a certification on security-related assistance to 
Pakistan in March, as required by the Kerry-Lugar-Berman bill. 
And I will not be required to make another certification until 
later when we look back on 2011. I will follow the rules that 
the law sets forth and try again to balance and weigh what 
they've done and what they have failed to do.
    We did say after bin Laden's death that our close 
counterterrorism cooperation with Pakistan did help us in 
tracking him down over many years. We also have seen some 
significant actions that have led to unprecedented additional 
pressure on al-Qaeda and the deaths of some top extremists. So 
we will be once again trying to balance this.
    I don't want to get ahead of myself, but I can assure you 
that I will do my very best to follow the rules set out in the 
laws passed by this body.
    Senator Casey. If you were--I guess what I'm trying to get 
to is, even though you don't have a current statutory 
requirement, just to give people a sense of where we are in 
that assessment, because you're hearing in this committee. You 
have heard a lot about this topic, about the question of 
accountability and how we justify support that the Pakistani 
Government benefits from.
    So I would urge you in any way you can, in addition to the 
statutory certification, to be able to report back to the 
American people.
    I only have another minute or so, but I wanted to ask you 
another question. It's broader and not as focused, but just in 
terms of the question of governance in Afghanistan, which has 
been one of the areas of real focus that we've got to make 
continual assessments about, and in particular the Karzai 
government. I and others have been critical over a long period 
of time. There's still not just the perception, but I think the 
irrefutable reality that there is corruption.
    I wanted to get your sense of that challenge we have right 
now. How would you grade them or how would you rate them or how 
would you assess the Karzai government's efforts to root out 
corruption, which is a problem throughout?
    Secretary Clinton. Well, I would give them a grade of 
incomplete, Senator. I think we have seen some progress, but 
nothing like what we would either expect to see or want to see 
from them. We have continued to keep the pressure on, and we of 
course have learned a lot over the last decade about how better 
to deliver the assistance we do, because it is fair to say that 
a lot of the corruption is tied to contracts that come from the 
United States, NATO partners, and others.
    So we have been trying to get to what is a good enough 
standard, because we are dealing with a society that has a very 
old history of how to deal with people and how to get tribal 
loyalties and family and clan loyalties. So I think we have to 
recognize that we're in a very tough environment when it comes 
to corruption, as it is in many other parts of the world that 
we deal with.
    We have been watching closely because of our own interests, 
but we give military and civilian aid to a lot of countries 
that hardly measure up to any high standard of enforcement 
against corruption. It is one of the biggest problems we face 
in the world right now, because it's a cancer and it undermines 
good governance and the rule of law and so much else.
    So it's an incomplete. We see some things that we think are 
the right direction and then we see a lot that we're very 
unhappy with.
    Senator Casey. Thank you very much.
    The Chairman. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Clinton, welcome. I have only got 6 minutes, so 
I'm going to try to talk fast to make sure all our colleagues 
get their chance to also make some comments.
    Let me begin by just saying I wouldn't want the record to 
show that I was in total agreement with your analogy comparing 
our situation in Korea, our long-term commitment to Korea, with 
what might take place in Afghanistan. Our situation in Korea is 
in one of the most vital areas commercially and in terms of 
large powers in the world. The Korean Peninsula--Northeast 
Asia--is the only place where the direct interests of the 
United States, China, Japan, and Russia intersect. Korea is 
kind of the bull's eye in the middle of that.
    For all the questions that I have had about the engagements 
in this other part of the world, I think you and I both know 
how strongly I believe that this is a critical moment in East 
Asia in terms of the potential volatility of our relations 
there. In that regard I want to say again that I appreciate the 
comment that you made last July relating to the sovereignty 
issues in the South China Sea. As you know, this is a very live 
issue today.
    I also would like to just point out, I keep hearing this 
analogy and I take the point to a certain extent with the 
situation in 1989, where we could have done more in Afghanistan 
and in that region and we didn't. But, we also should be 
mindful that the geopolitical circumstances today are quite 
different than they were in 1989, and the fact that we could 
have done more in 1989, does not in and of itself justify the 
methods that are being used today.
    I have to express my agreement with Senator Lugar's comment 
that if we were doing a military model right now, I don't think 
any of us would be sitting up here saying, ``Oh, it would be 
100,000 troops and spending $120 billion a year in 
Afghanistan.'' It's almost like Groundhog Day. I keep coming 
back to how we began this. If you really look at who defeated 
the Taliban in 2001, the Afghanis defeated the Taliban with a 
handful of very competent Americans, special operators, and 
forward air controllers. But the Afghanis beat them.
    If we look at the model that we're going to be moving 
forward with in places like Somalia and Yemen, the model is a 
much, much different model. So I think that the questions that 
people are asking about on where this is going to go--what 
Senator Corker calls nation-building and--I would tend to agree 
with him, these are valid questions.
    With respect to Pakistan, the word we haven't heard very 
much today is ``China.'' The day that Chairman Kerry left 
Pakistan, the Prime Minister of Pakistan went to China and 
said: ``China is our No. 1 friend.'' I picked up the Washington 
Post today; there's an article in there again where Pakistan 
clearly is courting China.
    This is one area where I think China seriously could do 
more to legitimize the status that it now has in consonance 
with the economic and military power that has grown, and in a 
way that could be positive. They're going to be a great 
beneficiary if this region does regain the stability and they 
clearly need to be more overt. I would hope they would be more 
overt in trying to bring about a solution.
    Now, I want to say two things really quickly here and then 
I'm afraid if I ask you a question I'm going to run out of 
time. But the first is, in your statement you mention this new 
strategic partnership declaration. I met with the Afghani 
Ambassador yesterday. He mentioned this. He said that they are 
seeing this as an executive agreement and that they, the 
Afghanis, believe there will be some sort of a document within 
the next couple of months.
    You and I had many conversations with respect to the 
strategic framework agreement that the previous administration 
worked up with Iraq, where the Congress didn't have a chance to 
really fully vet it. I hope we will get a chance to examine 
this and give our input, because clearly the question, in terms 
of what our long-term relationship in Afghanistan should look 
like, is something we need to be talking about before this 
agreement goes into place.
    Then the final thing that I would say is, again with your 
comment on page four of your testimony regarding this core 
group that Special Representative Grossman is putting into 
place in hopes of building political support, you have India, 
Russia, and Iran. I hope you can get China.
    With that, I have 9 seconds left and I yield back the 
balance of my time to Senator Shaheen.
    Secretary Clinton. In 5 seconds, Senator Webb, we are 
working very hard to get China to play a more productive role 
with Pakistan. We agree with that. Some day I'd love to talk to 
you about analogies, whether or not we agree with them, but to 
just kind of go through them. So I appreciate what you said.
    Senator Webb. Any time. Thank you very much.
    Senator Shaheen. Secretary Clinton, thank you for being 
here. I join my colleagues in all of our appreciation for the 
job that you're doing as Secretary of State.
    A little earlier, in responding to Senator Rubio and the 
decision about what happens after 2014, you talked about the 
continuing presence of NATO. Shortly after the President's 
speech last night, France announced that it too plans to begin 
drawing down troops. Obviously, several weeks ago Secretary 
Gates talked about the challenges with our NATO allies.
    So, given that situation, do you believe that our allies in 
NATO will continue to step up and to help us in Afghanistan 
through 2014, and what assurances do we have that that will 
happen?
    Secretary Clinton. Well, Senator, that was the agreement at 
Lisbon and I think a number of our NATO ISAF allies will be 
doing drawdowns proportionate to the troops that they have. 
There is a planning process within NATO as to how to manage 
that, because some are in areas where we have no U.S. presence.
    But there certainly has been an agreement that following 
2014 there will be some kind of continuing presence, and I 
think that the President mentioned last night that the United 
States will host the NATO heads of state next year in Chicago 
and it will be the time where we will take stock of where we 
are and the way forward.
    Senator Shaheen. Given the operations in Libya and the 
pressure that that's putting on both our capacity and the 
capability of NATO, is there concern that that will in the 
interim have an effect that will change our calculations for 
what's happening on the ground in Afghanistan?
    Secretary Clinton. I don't think so, Senator. I think that 
certainly from NATO's perspective, they joined with us in the 
Afghan mission and they were very anxious to have us join with 
them in the Libyan mission. So I think that there's not 
necessarily a connection, direct line between the two, but the 
larger questions that Secretary Gates has been raising, which 
are not Afghan-related or Libya-related specifically, about the 
commitment of NATO are ones that are going to have to be 
addressed.
    Senator Shaheen. Looking at the potential for a negotiated 
solution in Afghanistan, and I certainly understand and agree 
with you that--and we've heard from everybody who's testified 
before this committee that this is not a military solution; 
it's got to be a political and negotiated solution.
    But Ambassador Neumann testified before this committee that 
he was skeptical of power-sharing agreements. He said they only 
tend to last as long as it takes for one side to be strong 
enough to break it. I'm paraphrasing his comments there. Do you 
share this assessment and do you think that there really is the 
possibility for any kind of an agreement with the Taliban?
    Secretary Clinton. I think there is, but I think that we're 
a long way from knowing what the realistic elements of such an 
agreement would be. I think that Ambassador Neumann expresses a 
very common view that power-sharing agreements are often just a 
way station between fighting and a resumption of fighting if 
parties cannot maneuver out their opposition.
    I think it's too soon to say how this could play out in 
Afghanistan. But I can only stress that we are committed to 
pursuing it, because it is the only path forward. There is no 
other path forward. Nobody is strong enough to really assert 
control. They can go back to a civil war. They can go back to 
all kinds of fighting between them. But I think a resolution is 
in the interests of the parties as well. We just have to work 
to determine what the elements would be.
    Senator Shaheen. To go back to your discussion of the 
civilian surge, obviously we're talking about the need to draw 
down the military surge now. How do you look at the reduction 
of that civilian surge that's happened?
    Several weeks ago, I'm sure you're aware this committee 
issued a report that talked about the false economy that's 
being created in Afghanistan by the amount of money that is 
available and what that's doing to the Afghan economy. So 
looking at that and looking at the civilian efforts and the 
economic efforts that we've put in there, how do you see that 
being drawn down, or do you, as we get closer to 2014?
    Secretary Clinton. Well, we do. I think that the 
recommendations that the committee made are ones that we are 
very, very seriously looking at. The committee recommended that 
the administration and Congress should consider working 
together on multiyear civilian assistance. Well, there's a big 
problem with that. We don't get multiyears of civilian 
assistance. We get multiyear military commitments, and we have 
no disagreement that it would be great if we could, and Kerry-
Lugar-Berman was the first multiyear effort to commit to 
Pakistan.
    But we certainly are going to be looking at the programs 
we're running that are in conflict zones. One of the other 
points that the committee made was why 80 percent of the 
funding is spent in COIN regions. It's because the military was 
very insistent that there needed to be a marrying up of 
civilian efforts. The example I gave in my testimony about the 
Wardak region is a very good example.
    Then finally, we need to focus on sustainability of our 
programs so that the Afghans can continue them. We're looking 
at that as well.
    So we don't agree with all the recommendations or all the 
conclusions of the committee report. But we wish we could get 
multiyear programs that could be implemented and we had the 
flexibility and the agility. I mean, the committee, for 
example, talks about commander's response funds. Well, we don't 
have those. I can't send a diplomat or a development expert out 
with $50 or $100,000 in his back pocket. But young captains and 
majors can do that.
    We've learned a lot from this and we will do our very best 
to try to implement those lessons. I certainly, working with 
our team and Raj Shah over at AID, have been trying to wrestle 
to the ground how we get more accountability and more 
measurable outcomes from out assistance. So we're going to be 
changing in light of the military changes, but also in light of 
the lessons we've learned.
    Senator Shaheen. Thank you.
    Senator Coons. Madam Secretary, I just wanted to thank you 
for your testimony here today. It's been engaging and 
compelling and broad-ranging and very constructive, and I'm 
grateful to Chairman Kerry for convening this whole series of 
hearings on our policy toward Afghanistan. They've provided 
some important insights, very helpful to me, and I know to 
members of the committee.
    After attending nearly all of the hearings and traveling to 
Afghanistan and Pakistan for the first time in my life back in 
February, continuing to attend deployment ceremonies for 
Delaware National Guard units and a dignified transfer ceremony 
at Dover Air Force Base, I've spent a lot of time wrestling 
with what is the best path forward, as have all the members, I 
know, of this committee, and concluded, with some real 
hesitation and regret, ultimately that we need to make a change 
in strategy in Afghanistan.
    While I welcome the President's decision to redeploy all of 
the surge troops by next summer, my view is that we shouldn't 
really focus on the number of the troops as much as on the 
strategy driving them. I think for a variety of reasons we have 
heard discussed at great detail here today, a counterinsurgency 
strategy is just not sustainable and is not likely, no matter 
how many years we pursue it, to succeed in developing a truly 
secure and stable Afghanistan.
    So for a number of reasons, I've advocated for a change to 
a counterterrorism strategy. One of the principal reasons is in 
order to have the resources, the diplomatic and the military 
and the development resources, the focus, the capacity for lots 
of other important threats, to deal with Yemen and Somalia, 
with an emerging nuclear Iran, and principally with Pakistan.
    I do think that we see al-Qaeda beginning to emerge in 
Yemen in a way that's really challenging for us. I am really 
concerned about the points that have been raised by other 
members here about the very destabilizing impact on Pakistan of 
our role in Afghanistan and the lack of the resources to really 
make the engagement with Pakistan successful.
    So let me, if I could, move to three relatively brief 
questions around this. First, I wonder about what additional 
steps we can and should take to engage India more effectively 
in stabilizing what I think you very compellingly describe as a 
really difficult, complex relationship with Pakistan. I'd be 
interested in hearing from you what you're doing in the 
Department and what you are doing to successfully engage India.
    Second, in the core group passage that Senator Webb 
referred to I was struck to hear you make reference to Iran as 
being one of the regional parties that's being engaged 
successfully in the political resolution. Obviously, they did 
work with us in overthrowing the Taliban. They have a real 
shared interest with us in ending the narcotics trafficking out 
of Afghanistan. But their emerging very real threat as a 
nuclear power strikes me as one of the greatest challenges that 
all of us face, not just for the region, but for the world and 
for our critical ally Israel.
    So I'd be interested in how you assess the degree to which 
we actually could have aligned interests with Iran in 
developing some political resolution in Afghanistan.
    Then last, any input you'd like to offer about how we could 
refocus our efforts to bring more vitality and energy to the 
engagement with Pakistan, given the very troubling recent 
developments there?
    Secretary Clinton. Senator, those are all very excellent 
and quite complex questions. Let me start by saying, I think 
this debate between COIN and counterterrorism is to some extent 
unfortunate, because there is no real contradiction between the 
two insomuch as there is a phasing from one to the other. I 
think that the President decided and I agreed back in 2009 that 
if we didn't have a significant enough presence we would have 
one-off CT victories, but we would not change the momentum of 
the Taliban and we would be facing a situation that would have 
been very difficult for us to control.
    I think what the President has decided now, which I also 
agree, is that we have made substantial progress in reversing 
Taliban momentum and now we have to see how sustainable it is 
by relying on the Afghans themselves and by not only 
withdrawing our troops, but to begin to somewhat reshape their 
mission.
    So I don't think it's an either-or. I think it's a both-
and, which is why I made the point that we've been running CT 
operations consistently. It's not like we have just had big 
brigades of marines and soldiers. We've also had a very 
aggressive effort against Taliban and al-Qaeda and their 
allies.
    With respect to India, we are working very hard on our 
strategic partnership with India. You know, I think it's fair 
to say that India looks at Pakistan and believes that their 
continuing support for elements of insurgency against India in 
Kashmir and across the border into India proper makes it very 
difficult for them to know what path to choose. But I've been 
encouraged by the cricket diplomacy between Prime Minister 
Singh and Prime Minister Galani. I've been encouraged by the 
resumption of talks that had broken off in 2008. And we have 
certainly urged both sides to go as far as they could to build 
more confidence and to try to be able to develop an atmosphere 
of greater cooperation.
    I don't want to be misunderstood about Iran. I'm not saying 
that Iran is a partner in this process or is playing a 
constructive role. I'm merely saying that Iran is a player. The 
core group is strictly the core: Afghanistan, Pakistan, the 
United States. But then there is a concentric circle and it 
goes out and gets wider and wider, and in that have to be 
China, have to be Iran, have to be Central Asia, et cetera.
    One of the insights that Holbrooke brought to this was you 
had to have a lot of buy-in from a large group of nations and 
institutions in order to pull every lever possible. So for 
example, the last so-called SRAM group was hosted by the 
Organization of the Islamic Conference. That never would have 
happened 2\1/2\ years ago. Why? Because all of a sudden they 
think they have a stake in trying to help push toward some kind 
of political resolution.
    Finally, with respect to Pakistan, we're going to focus and 
refocus and refocus again, because it's an important 
relationship and it's one that requires a lot of effort and 
there's no easy course forward, but there's many different 
approaches that we are trying within the context of trying to 
enlist them in a resolution in Afghanistan.
    Senator Coons. Thank you very much for those answers.
    Senator Durbin. Madam Secretary, thank you for being here. 
It's a pleasure to see you and I thank you for your service.
    There was a week we shared in our public lives which we 
will never forget. It began with the tragedy of 9/11. It ended 
3 days later when we both joined in voting for the resolution 
which authorized the President of the United States to find 
those responsible and those who supported them and bring them 
to justice.
    I voted for that enthusiastically, as you did. I don't vote 
for many war resolutions, but that was the right one. If 
someone would have said to me on September 14, 2001, we're 
still going to be the 10 years from now, in the longest war in 
American history, we will have lost 1,600 American lives and 
possibly more, not to mention the casualties and injuries, we 
would be spending $120 billion a year, roughly four times as 
much in military spending in Afghanistan as their gross 
national product, their annual gross national product, and the 
end would still be years away, I would have found it hard to 
believe.
    We were going after Osama bin Laden and al-Qaeda and the 
people who made his evil opportunity possible. Now we are doing 
something else.
    I would have to join in what was said earlier by Senator 
Menendez. I have a real skepticism about our mission in 
Afghanistan at this moment. I do not have great confidence in 
the leadership in Afghanistan, either in its competence or 
honesty. I worry about the money that we are shoveling into 
this country in sums that are unimaginable in this poor, 
underdeveloped country.
    I've gotten reports and seen the contractors we are paying 
to go there to do things, and even this committee says the 
accountability is very limited in what we are trying to 
achieve. I've seen it firsthand. You talked about captains and 
majors with thousands of dollars to spend. They took me to 
Khost to show me a city hall and community building they had 
built with those funds. It was empty. The Afghans weren't 
looking for that, but we built it anyway.
    So I come to this with some skepticism, and I bring another 
element to it as well. If we cannot win this from a military 
basis--Senator Kerry said no military solution. You said in 
your Asia Society speech we will never kill enough insurgents 
to win this war--we still have to acknowledge that 100,000 
brave Americans are risking their lives as we sit here and tell 
them: You can't win this, but perform your mission.
    I go back to the point raised by Senator Shaheen. I want to 
ask a few more questions about it. What is the likelihood that 
we can use the standard you set out in your Asia Society speech 
to engage the Taliban in a meaningful discussion that will come 
up with a political solution?
    Secretary Clinton. Well, Senator, your comments took me 
back to that very difficult time that we did share together as 
Members of the Senate. I certainly agree with you that we 
committed to going after al-Qaeda, but we also in my view did 
not follow through the way we should have early on. That's not 
meant as criticism. It's just a statement of fact.
    I think that President Obama, who you know very well faced 
an incredibly difficult choice--it was difficult politically, 
it was difficult substantively, it was difficult personally. 
But upon very careful reflection and review, he made the 
decisions that I thought were the right decisions, given what 
he had inherited. I think he is now on the right path toward 
resolving our involvement in Afghanistan in the best way 
possible out of a lot of very difficult choices.
    So I would answer the question in this way. I don't think 
it's a matter of winning or losing. I think it's a matter of 
how we measure the success we are seeking in Afghanistan. I do 
believe it is possible to construct a political and diplomatic 
resolution.
    I will know more about that at the end of this year than I 
know now, because we were not in a position, frankly, to pursue 
that until recently. Why? Because the Taliban were not 
interested in talking to us because they thought they were 
going to make a big comeback. I remember when President George 
W. Bush basically said to Mullah Omar and the Taliban: Look, 
turn over bin Laden and al-Qaeda and we're done; we're not 
going to come after you. And they would not do it, and they 
never have agreed to do it. And only now are we beginning to 
see the kind of outreach that evidences a willingness to 
discuss the future. I don't think we would have gotten there 
absent President Obama's very difficult, tough assessment that 
led to his decisions.
    So good people and very smart people can disagree about the 
way forward and that's what this hearing has demonstrated. I 
have the highest regard for every member of this committee and 
I know that every single man and woman wants to do what's best 
for America, wants to do what's best for our troops, wants to 
do what's best for our future. And it is our very reasoned 
assessment, taking into account everything that we have all 
discussed today, that we now have a chance to bring this to a 
political and diplomatic end. But the President has started us 
on a path that will lead to the bringing home of our troops 
over the next years.
    So it's a tough call, Senator, and there's no easy formula 
that any of us can follow at this point. I wish it were 6 
years, 7 years, 8 years ago and we had made different choices 
then. But you know, we don't get that luxury. And it's deeply 
regrettable, but Presidents have to make the tough calls and 
this President has made it.
    Senator Durbin. I'll just conclude by saying thank you and 
urge you to use--and I know you will, because I know you--use 
all of your skills to pursue the diplomatic end so that we can 
bring our troops home more quickly than the President suggested 
last night. I'll do everything I can to support that.
    Thank you.
    Senator Udall. Thank you, Senator Clinton, for being here, 
and thank you very much for your service to our country. I 
can't emphasize that enough and I think all of our colleagues 
here very much appreciate your service.
    I don't want to repeat a lot of what was said, but I agree 
very much with what Senator Durbin said about where we are 
today. I really believe--and the President said this last 
night--if you look at the situation we're in and why we went 
in, the focus was on a government, as you have said in your 
testimony, that was sheltering terrorists. There were training 
camps, there were--they had organized this terrorist attack on 
us.
    That's all gone, and bin Laden has been brought to justice. 
It just seems to me that we're at the point where we should be 
looking at what many of our NATO allies--I remember over and 
over again in the period when President Bush was there and 
organizing the NATO allies, they would say over and over: This 
needs to be Afghan-led in terms of security, this needs to be 
Afghan-led.
    I don't know how we get to that point on the Afghans 
leading on security, unless you have some kind of deadline. 
Senator Levin I know, our Armed Services chairman, has said 
several times that a deadline focuses the mind. It obviously 
lets us know when we pass off and it lets them know.
    Do you think we have a deadline right now in terms of when 
all of our combat forces will be out of Afghanistan and when 
they will really take the lead on security?
    Secretary Clinton. Senator, I certainly do. I think that 
has been the agreed-upon path that was adopted at Lisbon. We 
have a final deadline of 2014. The Afghans accepted it. We made 
it very clear that that was it. And we have a glide path to 
2014 that the President promised in his West Point speech, 
which he is now beginning to order the implementation of.
    So I agree with you that we needed to set a deadline in 
order to make it clear to the Afghans that there would be a 
transition. I would also just underscore that 2\1/2\ years ago 
when the President began this assessment there was so little to 
the Afghan security forces. It just was not even credible. For 
whatever reason, what had been done before had not worked.
    But I think it is absolutely fair to say that it is 
working. There is still a lot that has to be done in terms of 
building up and professionalizing. But Afghans in some areas 
now are in the lead. They've had the lead in Kabul for a year. 
I remember talking to General Petraeus after he took command in 
Afghanistan. He said: ``You know, Kabul is right now a lot more 
peaceful than Baghdad was when we started.''
    So I know how frustrating it is because we have been there 
for 10 years and there are lots of factors that we can't really 
hold accountable or manage the way we would like. But I also 
think it's only fair to look at what has been accomplished, and 
it has been accomplished in part against the backdrop of the 
deadline.
    So yes, we do have a deadline and we are acting upon it.
    Senator Udall. And your sense is our deadline is at the end 
of 2014, that all of the combat forces for the United States 
will be out of Afghanistan?
    Secretary Clinton. That was the agreement and that was the 
agreement with NATO ISAF and the agreement with the Afghans.
    Senator Udall. Now, you know, we use the term a lot and you 
hear this about conditions on the ground. The thing that is 
dependent here, if you use the term, you say, well, it's going 
to depend on conditions on the ground, then we're going to talk 
about how prepared their forces are to step up to the plate. 
From all the reports I have heard--and you just mentioned this 
a minute ago--they have come along, but they may not be ready.
    I know that there was a U.N. official, a high U.N. 
official, and he was a controversial one, and he left and he 
gave a talk on 60 Minutes, an interview, and his opinion was it 
would take 100 years to get the police, the Afghan police and 
army, to the point where we would feel they were acceptable. So 
I just hope that we're not going down a road where we're 
saying, well, we do have a deadline, but it's going to be based 
on conditions on the ground and we're going to change, we're 
going to change direction based on the fact that the Afghan 
army and police in our judgment aren't able to take this over.
    As Senator Durbin said, ``I hope that we can quicken this. 
I hope that we can move more quickly to an accelerated 
transition to Afghan security. And if you're able to do that, 
I'm going to be here to support you.''
    I once again thank you for your service. And thank you, 
Chairman Kerry, for holding these hearings and allowing all of 
us to participate. Thank you.
    The Chairman. Thank you. Thank you very much, Senator 
Udall.
    Madam Secretary, thank you. I know that we've gone over a 
little bit on the time. I know your staff has been sitting 
there chafing and trying to get you down there. I apologize for 
that.
    But I also want to say to you I think it has been really 
very constructive and very healthy to have this exchange and 
for our colleagues to put their thoughts on the table, as you 
remember well, and also to hear your answers. I want to thank 
you for being as thorough and as generous in your answers as 
you have been. I think it's been really constructive.
    I would like to personally thank you for your many 
courtesies. Also, I echo my colleagues in saying what a 
terrific job you are doing, and we're grateful to you for your 
seemingly endless reserve of energy. So thank you very, very 
much. I look forward to following up on our other conversation.
    Secretary Clinton. Good. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [Whereupon, at 12:28 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                   Submitted by Senator John F. Kerry

    Question #1. In your testimony you said ``When it comes to our 
military aid [to Pakistan], we are not prepared to continue providing 
that at the pace we were providing it unless and until we see some 
steps taken."

  <bullet> How will withholding certain forms of military aid for 
        Pakistan affect our counterterrorism and counterinsurgency 
        efforts in Pakistan and in Afghanistan?

    Answer. Pakistan remains a key ally in our common struggle against 
terrorism and continues to proactively undertake counterterrorism 
efforts. We believe that establishing a long-term partnership with 
Pakistan is the best way to support both of our country's national 
security interests.
    We are working intensively with the Government of Pakistan to 
establish a shared set of expectations that will permit us to 
strengthen cooperation to successfully achieve our shared security 
objectives. Our goal is to ensure that Pakistan understands the 
importance of demonstrating--to the administration and to Congress--
that it is a vital and active partner in counterterrorism and is 
helping us end the war in Afghanistan by pressing the Taliban into 
reconciliation. At the same time, the Government of Pakistan has 
requested a significant reduction in the U.S. military presence in 
Pakistan. In addition, Pakistan has significantly limited the number of 
visas it provides for U.S. military and contractor personnel involved 
in implementing our assistance programs. Both of these actions have 
inhibited implementation of security assistance programs in Pakistan at 
this time, creating a de facto pause in our deliveries to Pakistan's 
military.
    The Department is continually reviewing its security assistance 
programs to ensure that these programs are meeting our 
counterinsurgency and counterterrorism goals and that there are minimal 
disruptions to these objectives. We remain committed to helping 
Pakistan build its counterterrorism capabilities in order to fight 
extremists who carried out 1,400 terrorist attacks and caused more than 
6,500 casualties in Pakistan in 2010 alone.

    Question #2. The United States is seeking to help the Government of 
Pakistan improveits capacity to deliver health services to its people 
and to improve outcomes in that country, including reductions in infant 
and child mortality. Vaccines are among the most cost-effective tools 
in the health arsenal. Pakistan is also among only four countries in 
the world in which wild polio continues to circulate. Helping Pakistan 
eliminate polio could be a very tangible legacy of Kerry-Lugar-Berman 
assistance, as part of integrated efforts to enhance health services 
and improve outcomes.

  <bullet> (a) What are the funding levels for U.S. support for 
        immunization programs in Pakistan for FY 2009-10 and the 
        projected funding levels for FY 2011-12?

    Answer. Unfortunately, despite the many campaigns over the years, 
polio still exists in Pakistan, and the number of cases actually 
increased in the last year. We recognize the benefit that polio 
eradication would have for the Pakistani people and the world. The 
Centers for Disease Control and Prevention (CDC) also support polio 
eradication efforts in Pakistan. As you may know, the United States has 
been the largest single donor to the Global Polio Eradication 
Initiative, providing over $2 billion in support since 1985, including 
$132 million in each of the last 2 years.

                             FUNDING LEVELS
------------------------------------------------------------------------
                                                        FY11      FY12
   Budget Overview ($millions)      FY09      FY10     (est.)    (est.)
------------------------------------------------------------------------
 Polio eradication..............        2         8         2         2
 All Other Immunization (within         2      26.5        20        20
 separate health programming)...
------------------------------------------------------------------------

    Please note that in attempting to balance the importance of polio 
eradication efforts and the absorptive capacity of Pakistan, we believe 
a total of $10 million for FY 2010 and FY 2011 to be the most effective 
allocation of funds.

  <bullet> (b) Some have suggested that unobligated funds that were 
        previously appropriated might be available for expanding the 
        U.S. investment in immunization efforts. What are the current 
        levels of unobligated economic assistance funds for Pakistan 
        for FY 2009-10 and to what degree have those funds been 
        committed in agreements with the Pakistani Government although 
        not yet obligated?

    Answer. There are no unprogrammed FY 2009 or FY 2010 funds for 
Pakistan which are available for expanding health activities.

  <bullet> (c) What are the health opportunities that could be achieved 
        through greater investments either in U.S. bilateral support 
        for immunization or through the Global Alliance for Vaccines 
        and Immunization (GAVI) in Pakistan?

    Answer. Greater investments in either U.S. bilateral support for 
immunization or through GAVI in Pakistan could further reduce and 
prevent infant mortality and morbidity caused by common childhood 
diseases and could help with efforts to eradicate polio. For example, 
with the increased support for immunization in FY 2010, $7.5 million 
was used to purchase 6.5 million doses of measles and 15 million doses 
of tetanus vaccines; $7.5 million was used to purchase cold chain 
equipment (refrigerators, coolers, storage rooms); and an additional $5 
million will be used to purchase BCG (tuberculosis ) and pentavalent 
vaccine--a five-in-one vaccine that protects against diphtheria, 
tetanus, pertussis (whooping cough), hepatitis B, and Haemophilus 
influenzae type b (often known as Hib) which causes some severe forms 
of pneumonia and meningitis. In FY 2009 and FY 2010, $5.5 million in 
USAID funding supported 19 national and subnational polio campaigns, 
which reached over 32 million children under 5 years of age with 250 
million doses of polio vaccine each year.

  <bullet> (d) With India now making substantial progress in the fight 
        against polio, how can KLB help Pakistan to make similar gains 
        in eliminating this disease from within its borders? What are 
        the most significant obstacles to such an achievement?

    Answer. Polio in Pakistan is fueled by a small number of geographic 
areas (the majority of cases occurred in 15 chronically underperforming 
districts) and by migrant groups. Major constraints include poor 
supervision and management (poor performance during immunization 
campaigns, routine immunization, and in community awareness and 
surveillance) and lack of access (estimates indicate that more than 25 
percent of children in the Federally Administered Tribal Areas are 
missed during the campaigns due to insecurity).
    KLB funds are helping Pakistan to eradicate this disease. The 
United States plays a low visibility but highly important role in polio 
eradication in Pakistan. Our objective is to ensure that this is seen 
as a Pakistani-led and implemented program, which builds local 
ownership, provides safe passage for vaccinators, and avoids sparking 
antivaccination rumors often linked to the United States. Through the 
World Health Organization and UNICEF, the United States provides 
funding and technical support for the implementation of the Pakistan 
Emergency Action Plan and in collaboration with the World Bank and 
other partners, the funding of oral polio vaccine.
    In particular, the United States has focused its resources on 
improved surveillance at the union council level, improved planning for 
immunization campaigns, improved monitoring and evaluation, and 
communication to increase community participation and demand for polio 
and other vaccinations. These areas will be important as we strive for 
nationwide population immunity to stop transmission and in the 3-year 
minimum period needed to verify the absence of disease in advance of 
certification.
    We support immunization posts at 11 formal border crossings between 
Pakistan and Afghanistan on both sides of the border. Further, the 
United States provides technical support through surveillance training, 
Center for Disease Control (CDC)-detailed personnel, U.S Agency for 
International Development (USAID) participation on interagency 
committees, and USAID and CDC participation in technical advisory 
groups and program evaluations.

    Question #3. A recent report from the Senate Foreign Relations 
Committee entitled ``Avoiding Water Wars: Water Scarcity and Central 
Asia's Growing Importance for Stability in Afghanistan and Pakistan'' 
commended the Obama administration and specifically the State 
Department for its work to elevate water in terms of diplomacy and 
national security, specifically in Afghanistan and Pakistan. The report 
also made recommendations and observations for large dam projects, 
which hold vast potential for energy, irrigation and flood resistance, 
but also can displace people and exacerbate domestic and international 
tensions over water resources. The report found that ``[w]hile the 
United States has appropriately begun to elevate its interest in 
supporting water through `signature' projects in these regions, our 
efforts still lack strategic clarity, unity of purpose, and a long-term 
vision to support our national security interests.''

  <bullet> Please provide specific examples of how the United States 
        plans relating to water use, supply, or demand in Afghanistan 
        and Pakistan applies the comprehensive and sustainable approach 
        recommended in the committee report.
  <bullet> In Pakistan, please describe (1) water-related projects that 
        may or will be funded by the Kerry-Lugar-Berman (KLB) 
        legislation, and (2) how the U.S. Government plans to respond 
        to future flooding in Pakistan, which is expected by some 
        experts.
  <bullet> In Afghanistan, how has our agriculture strategy been 
        tailored toward long-term, sustainable productivity able to 
        withstand climate change, floods and potential water scarcity?

    Answer. Despite significant economic and development problems 
stemming from water scarcity, Pakistan is deadlocked on how to deal 
with the complex challenges of its water sector. Competing demands for 
water--among countries, provinces, localities, and domestic cross-
sector users--compound the stalemate. These concerns, along with 
growing public awareness of an impending water crisis, prompted 
Pakistan to request a Water Working Group under the U.S.-Pakistan 
Strategic Dialogue.
    Over the past year, the Water Working Group has become a key venue 
for substantive discussion of Pakistan's pressing water needs. We have 
encouraged Pakistan to adopt a water system that is based on 
sustainable, efficient use of water with pricing established on a cost 
recovery basis. Through our efforts, and in support of Pakistan's 
goals, the Friends of Democratic and Pakistan (FODP) and the Asian 
Development Bank (ADB) have commenced preparation of an integrated 
water sector report and plan for Pakistan. The plan, due to be 
completed in late 2011, will provide a detailed roadmap for reform of 
Pakistan's water sector.
    We also demonstrate support for Pakistan's water sector through the 
Secretary's Signature Water Program. Announced in July 2010 and valued 
at $270 million, the program focuses on seven major projects designed 
to improve water systems across Pakistan: Gomal Zam Dam improvements 
and irrigation project; Satpara Dam improvements and irrigation 
project; Jacobabad and Peshawar Municipal Drinking Water Systems; a 
portion of the Municipal Services Delivery Program; the High Efficiency 
Irrigation Systems Program; and Water Storage Dams in Balochistan. 
Implementation of these projects will result in near-term, tangible 
improvements to Pakistan's water infrastructure.
    The Government of Pakistan has also proposed a number of 
hydroelectric projects for us to consider as candidates for assistance 
funding, notably the Diamer Basha Dam in Khyber-Pakhtunkhwa and Gilgit-
Baltistan, and the Kurram Tangi project in North Waziristan. We are 
evaluating our support for these projects in terms of their 
contributions to sustainable energy and water sectors in Pakistan.
    We stand ready to support the Government of Pakistan and the 
Pakistani people in the event of additional flooding in Pakistan this 
season.
    In Afghanistan, the U.S. Agency for International Development, the 
U.S. Department of Agriculture, and the National Guard Agribusiness 
Development Teams are collaborating with the Ministry of Agriculture, 
Irrigation, and Livestock to improve long-term sustainability and 
resilience to climate change through increased water-use efficiency. We 
are accomplishing this by improving on-farm water management, repairing 
irrigation infrastructure, and improving watershed management. The U.S. 
Army Corps of Engineers is evaluating potential sites for constructing 
small dams that will increase water storage for irrigation during dry 
seasons.

    Question #4. I understand that the administration is considering 
involvement in high-profile dam projects in Pakistan, including the 
Diamer Bhasha project. With respect to the Diamer Bhasha project:

  <bullet> Please discuss what specific improvements you envision would 
        need to be made in surrounding areas to both irrigation and 
        electricity transmission to best realize the potential benefits 
        of the dam and to ensure that U.S. money was being spent to 
        maximum positive impact, if the United States were to 
        contribute funding to the project.
  <bullet> Please provide any detailed funding plans you have developed 
        or received for financing the Diamer Bhasha project.
  <bullet> What steps are being taken to address resettlement issues 
        resulting from Diamer Bhasha? Has contact been made with India 
        to discuss resettlement options? When seeking to learn best 
        practices from past mass resettlements due to dam construction, 
        what past examples do you think will be most helpful?
  <bullet> According to the World Bank, the Indus Waters Treaty gives 
        India the right to ``veto'' major dam projects in the disputed 
        territories, including, but not limited to, the Diamer Bhasha 
        project. In contrast, according to the Asian Development Bank, 
        the treaty only gives India the opportunity to raise concerns 
        that relate to rights to the disputed territory. Please 
        describe in detail the U.S. position on this issue, as well as 
        any strategy for securing Indian approval or acquiescence if it 
        proves necessary.
  <bullet> Who prepared the feasibility study for the project? Please 
        provide a copy of the study.

    Answer. The Government of Pakistan has told us that construction of 
Diamer Basha dam, valued over $12 billion, is one of its top 
development priorities. We are currently considering how the U.S. 
Government can support discrete, practical elements of the overall 
project that will have tangible results--and will attract additional 
funding from other donors. We believe that investing in projects that 
support the overall construction of Diamer Basha would attract 
recognition for U.S. assistance in Pakistan, and convince the Pakistani 
public that we are here for the long haul.
    The Asian Development Bank (ADB) is reviewing the Diamer Basha 
project, including its environmental and social impact, as well as 
other technical standards. This project would not need any special 
review or consideration with regard to the Indus Water Treaty. The ADB 
has its own internal policies when dealing with projects in or near 
disputed territories, such as Jammu and Kashmir.
    Pakistan's Water and Power Development Authority (WAPDA) has 
commissioned noted international consulting engineering firms to 
conduct a series of feasibility studies and reviews of alternative 
designs for Diamer Basha Dam. These include:

  <bullet> Montreal Engineering Company (MONENCO of Canada), 1984. 
        ``Basha Storage and Power Project--Feasibility.''
  <bullet> NEAC (a joint venture led by National Engineering Services--
        Pakistan), 2002. ``Basha Diamer Dam Project--Feasibility 
        Report.''
  <bullet> Diamer Basha Consultants (a joint venture led by Lahmeyar 
        International of Germany), 2005. ``Review of Feasibility 
        Report, Engineering design and Tender Drawings/Documents.''

    Question #5. What evidence do we have that U.S. stabilization 
programs are promoting stability and extending the reach and legitimacy 
of the Afghan Government?

    Answer. Our stabilization goal in Afghanistan is to help the 
Government of the Islamic Republic of Afghanistan (GIRoA) gain the 
support of the Afghan population by reducing the conditions that give 
rise to the insurgency, while also helping enable Afghan-led transition 
by the end of 2014 by establishing a foundation for long-term 
development assistance.
    The United States has executed more than 5,325 community 
stabilization activities, most of which were short-term and targeted at 
sources of instability by connecting communities to nascent subnational 
government in key areas. These programs have generated more than 14.5 
million employment days through short-term income generation, as well 
as provided livelihood assistance to more than 36,000 individuals 
suffering losses because of military operations.
    Progress on stabilization can be difficult to measure because the 
concept is subjective and contextual, and monitoring and evaluation is 
challenging in a fluid political-security environment such as 
Afghanistan. Nevertheless, recent independent survey research 
evaluating the impact of USAID stabilization programs is encouraging:

  <bullet> Research by Altai Consulting for USAID's Afghanistan 
        Stabilization Initiative found that in Kandahar's Argandhab and 
        Zari districts, where subnational government institutions have 
        only recently been reestablished, the vast majority of Afghan 
        respondents said they looked first to local government to help 
        solve their problems;
  <bullet> Research by the Afghanistan Center for Social Research for 
        USAID's Local Governance and Community Development program 
        found that the stabilizing impact of improved service delivery 
        increases significantly when GIRoA is seen as the provider 
        rather than an international agency or nongovernmental 
        organization.

    Anecdotal evidence also supports these findings. For example, the 
Taliban's recruitment campaign in the Jalriz district of Wardak 
province this spring faltered for the first time when hundreds of 
likely recruits employed in a USAID-funded reconstruction project 
preferred repairing their own irrigation systems to fighting, and the 
community stood by this decision, even when threatened with Taliban 
reprisals.

    Question #6. What percentage of FY11 and FY12 resources will be 
spent on stabilization programs in Afghanistan by region?

    Answer. In FY 2011, we have notionally allocated $241 million to 
explicit stabilization programs, which is approximately 12 percent of 
the total FY 2011 USAID budget. Stabilization programs are designed to 
be flexible and responsive to needs on the ground, so it is difficult 
to provide precise estimates of future stabilization resource 
allocation by region. That said, a significant portion of stabilization 
resources in FY 2011 and FY 2012 are likely to be allocated to the 
relatively more kinetic areas of the south, southwest and east. Actual 
resources spent will depend on a number of factors and will require 
flexibility to respond to unstable areas in the north and west.
    Table 1 provides a regional breakdown of the percentage of 
estimated money disbursed on programs under our stabilization portfolio 
for FY 2009 through the second quarter of FY 2011. This table reflects 
data only for our programs explicitly designated for stabilization, but 
does not reflect a range of other USAID programs that also contribute 
to our stabilization goals, such as agriculture stabilization, 
subnational governance programs, and health and education programs that 
are implemented in Key Terrain Districts. This money was already 
disbursed out of Spend Plans prior to the FY 2010 supplemental and 
reflects the reported estimated disbursements made by USAID 
implementing partners to implement the projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 2 shows the percentage of money disbursed in each region 
allocated to stabilization from FY 2009 through the second quarter of 
FY 2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question #7. A recent report from the Senate Foreign Relations 
Committee entitled ``Evaluating U.S. Foreign Assistance to 
Afghanistan'' noted ``with the upcoming transition to an Afghan 
security lead in 2014 and the increased responsibilities our civilians 
will absorb from the military, we have a critical planning window right 
now to make any necessary changes to support a successful transition.'' 
According to World Bank data, the total aid to Afghanistan was 91 
percent of GDP in 2010/2011 (private sector investment was only 4.3 
percent). Even under optimistic scenarios, the Afghan budget will not 
be fiscally sustainable in the medium term. Operation and maintenance 
(O&M) costs will be the largest liability, accounting for twice as much 
as domestic revenues by 2021. Under conservative estimates of declining 
aid, the Afghan budget deficit will reach 30 percent of GDP by 2021 
with additional O&M costs. By comparison, Greece's budget crisis took 
place at a deficit of about 13 percent of GDP.

  <bullet> Please explain why we are continuing to fund new 
        infrastructure projects such as those proposed under the Afghan 
        Infrastructure Fund when the Afghan Government has limited to 
        no capability to sustain such projects, particularly operations 
        and maintenance costs.
  <bullet> Please describe the civilian transition planning that is 
        underway, with particular emphasis on how our assistance such 
        as ``foundational investments'' in economic growth, 
        infrastructure and human capital is sustainable under Afghan 
        control.

    Answer. The administration recognizes that in order to achieve our 
long-term infrastructure goals for Afghanistan, we need to build a 
shared vision among the Afghans, the international community, and the 
private sector on a prioritized list of infrastructure and energy 
investments as well as develop Afghan capacity to sustain these 
investments. The Afghanistan Infrastructure Fund (AIF), while designed 
as a joint civil-military approach to meet the critical needs of the 
war effort in Afghanistan, has also been designed to incorporate 
elements that will contribute to the long-term sustainability of 
Afghanistan's infrastructure. AIF funds will support USAID's work with 
Afghanistan's national power utility, Da Afghan Breshna Sherkhat 
(DABS), to extend the North East Power System (NEPS) into communities 
in eastern Afghanistan. By working with DABS on this project, USAID 
will build DABS capacity to oversee, implement, and manage such large-
scale infrastructure projects. Further, the long-term sustainability of 
this and other AIF investments is linked with USAID's ongoing capacity-
building and commercialization efforts to increase DABS revenue and 
management capacity. As a result of this ongoing support, the Kabul-
based division of DABS has already doubled revenues in just 2 years, an 
amount equivalent to the total USAID investment in the utility. As the 
program expands to seven additional cities, it will be complemented by 
a new USAID program that will build capacity in engineering, 
procurement, project management, and operations and maintenance. The 
Afghans have already begun expanding DABS commercialization efforts 
outside of Kabul without international assistance, another sign of 
progress and increasing Afghan capacity.
    The statement attributed to the World Bank, that ``total aid to 
Afghanistan was 91 percent of GDP in 2010/2011 (private sector 
investment was only 4.3 percent)'' is sometimes misinterpreted as 
meaning that international aid constitutes 91 percent of the Afghan 
GDP. That is incorrect. In fact, total international aid to Afghanistan 
was roughly equivalent to 91 percent of Afghan GDP. At the same time, 
we recognize that transition will affect Afghanistan's short to midterm 
fiscal sustainability. To address this, we are working to attract 
increased private sector investment, build the capacity of Afghan 
institutions to collect and manage revenue (e.g., there has been a 200-
percent increase in customs revenues alone since 2006), and focus on 
foundational investments in sectors most likely to drive mid- and long-
term economic growth, such as extractive industries.
    Our continued support for Afghanistan as a development and 
strategic partner will be important as the transition to Afghan-led 
security gains momentum. This requires foundational investments that 
promote economic growth and improve the government's capacity to 
generate revenue, strengthen national and subnational governance, 
enhance the capacity of the government to deliver rule of law and 
justice, improve accountability, and support Afghan leadership, 
sustainability, and capacity across our assistance program. 
Foundational investments in infrastructure (energy and water) enable 
the most promising economic growth sectors in agriculture and the 
extractive industries. Complementary foundational investments in human 
capacity development and financial inclusion will increase Afghan human 
and institutional self-sufficiency and help build transparency in 
Afghanistan's financial system. As Afghan capacity increases and as 
transition progresses, USAID's role will shift away from stabilization 
and services provision and move toward supporting the Afghan Government 
and civil society as these institutions provide essential services, 
engage the private sector, leverage donor support, and increasingly 
integrate Afghanistan into the regional economy. In this support role, 
the United States will have a much more conventional development 
relationship with Afghanistan.

    Question #8. Wage levels for Afghan Government staff such as 
teachers, health workers and administrative staff can range from $50 to 
$100 per month. By contrast, drivers, assistants and translators for 
aid projects are paid upward of $1,000 per month. Based on 
conversations with senior Embassy Kabul officials, my staff learned 
that 40 Afghans working in professional positions within the government 
received between $3,000 and $5,000 per month in salary supplements from 
the U.S. Government under a program that ended in March. According to 
SIGAR, many of these donor-supported positions fall outside the 
government's budgeting process and staffing charts.

  <bullet> Please describe in detail the steps the administration is 
        taking to standardize Afghan salaries and operate within Afghan 
        Government staffing constraints.

    Answer. As reported by SIGAR and the World Bank, the presence of 
the international community in Afghanistan has had an impact on the 
labor market, particularly related to salaries. The U.S. Government 
recognizes the challenges this presents and has taken a number of steps 
to address the situation. First, the United States, along with others 
in the international community, have agreed to increasingly shift 
technical assistance through the Civilian Technical Assistance Program 
(CTAP), an innovative mechanism run through the Afghan Ministry of 
Finance that allows donors to contribute funds to be used by the Afghan 
Government to directly hire technical experts. The United States has 
disbursed approximately $5.5 million to CTAP, but plans to increase 
this to $30 million overall. Use of CTAP will help reduce salary 
inflation by decreasing the number of expensive expatriate technical 
advisors and allowing the Afghan Government to select its own technical 
experts at reduced rates.
    Second, the United States has supported the Afghan Government as it 
implements a series of pay-and-grade reforms that will create the 
groundwork for a more structured hiring and management process within 
the civil service. Assistance in this area has supported analysis of 
workforce roles, salary surveys to generate data from the private and 
public sector for jobs, and development of a pay and classification 
system for implementation of the new pay and grade system.

    Question #9. Does the administration support a multiyear 
authorization bill for U.S. civilian assistance to Afghanistan as 
described in the committee's report ``Evaluating U.S. Foreign 
Assistance to Afghanistan''? If so, please describe the steps you will 
take to work with Congress and this committee to help shape such an 
authorization.

    Answer. One of the key recommendations of the May 2011 SFRC report 
was to pursue the option of a multiyear authorization bill for U.S. 
civilian assistance to Afghanistan. In the current resource-constrained 
budget environment and in light of the uncertainties surrounding 
security transition leading toward 2014, it is not clear that now is 
the most opportune time to pursue this kind of multiyear agreement. The 
example of the Kerry-Lugar-Berman multiyear assistance package for 
Pakistan demonstrates the difficulty of fulfilling such commitments in 
this constrained budget environment as well as under the changing 
diplomatic and development conditions. That being said, the 
administration is open to continued dialogue on the topic.

    Question #10. Contractors are an important part of our strategy in 
Afghanistan, as implementing partners for USAID projects, as support 
personnel for the Embassy, and as experts who are helping build the 
capacity of the Afghan Government. However, there are too many reports 
of waste, fraud and abuse, and SIGAR, DOD and State Inspectors General 
have raised concerns about the State Department's lack of sufficient 
oversight. Contracting is difficult in the best of circumstances; it is 
much more challenging in war zones, where the preference is to hire 
local contractors and use local nationals, and where there is enormous 
pressure to award contracts rapidly.

  <bullet> (a) Please describe the steps the INL Bureau is taking to 
        increase contractor oversight in Afghanistan, including 
        increasing the number and quality of contracting officer 
        representatives to oversee INL projects.

    Answer. INL continues to strengthen contract oversight for 
Afghanistan. Key among those improvements were increasing the INL 
contract administration personnel in the field, refining Standard 
Operating Procedures for ICORs operating in theater to be fully 
implemented by September 30, 2011; increasing the number of staff for 
conducting reconciliation on historical invoices; and establishing 
remote field access to the Contracting Officer Representative's files 
here in Washington, DC. The number of contract administration personnel 
in the field fluctuates due to normal personnel transition schedules, 
but currently 10 contract administration personnel are in Afghanistan, 
three will begin predeployment training shortly, and four are going 
through the clearance process. INL also increased the number of staff 
conducting historical invoice reconciliation (those invoices prior to 
2007) from a total of 10 staff in 2007 to the current total of 16 by 
working on invoices for both Iraq and Afghanistan. The enhancement to 
INL contract administration oversight resulted in a higher rejection 
rate (31 percent) for all INL Afghanistan task order invoices. Beyond 
that, the transfer of contract support for the Afghanistan National 
Police training program to the Department of Defense means that INL 
oversight can focus on other program areas, amplifying the impact of 
the steps that we have already taken.

  <bullet> (b) Please describe the steps USAID is taking to increase 
        contractor oversight in Afghanistan, including increasing the 
        number and quality of contracting officer representatives to 
        oversee USAID projects.

    Answer. USAID is taking a number of steps to increase oversight in 
its assistance programs. First, USAID has created a new Division within 
the Office of Acquisition and Assistance called Compliance and 
Oversight of Partner Performance (COPP). The Division was formally 
inaugurated in February 2011 and has already completed more than 40 
suspension and debarment actions agencywide, based largely on referrals 
from the OIG. Though the COPP Division is located in Washington, DC, it 
works closely with our Kabul Mission.
    More specific to Afghanistan, USAID has 71 staff in Kabul working 
in oversight capacities in auditing, contracting, and financial 
management. USAID/Afghanistan also has 84 certified Contracting 
Officer's Technical Representatives (COTRs). In addition, in 2010 USAID 
developed the Accountable Assistance for Afghanistan initiative (A3) to 
help prevent assistance directly or inadvertently supporting malign 
groups or being diverted from their development purpose by extortion or 
corruption. As a result of this initiative, USAID is implementing 
safeguards in four areas, two of which strengthen our preaward 
processes and two that strengthen our post-award process. For example, 
USAID/ Afghanistan now includes a subcontractor clause in new awards 
that permits USAID to restrict the number of subcontract tiers, 
requires the prime contractor to perform a certain percentage of the 
work and prohibits subcontractors from passing the work to another 
party, thereby reducing the risk for corruption. Another example is 
that USAID is increasing its financial controls through a joint program 
with the USAID Inspector General to audit all locally incurred costs of 
program-funded implementing partners. Audits will be performed by 
internationally accredited regionally based audit firms and checked by 
the Inspector General. Oversight will all be increased through the 
establishment of On-Site Monitors (OSMs) in USAID field offices for 
project monitoring. Each USAID project will be assigned an OSM that 
will provide real time data to contract staff in Kabul on project 
performance and accountability. Finally, in an effort to make projects 
more manageable and to improve program oversight, in some cases USAID 
has moved from larger contracts to smaller, more regional based 
contracts with durations of 1 year, with an option for extension years. 
This model enables us to assume more flexibility in terminating poorly 
performing contractors from long-term projects.

    Question #11. While the World Bank's ARTF is a valuable instrument 
through which the United States can and should disburse aid, we believe 
the administration should push for more robust supervision from the 
World Bank on the ARTF, including greater field oversight and more 
consistent application of the metrics and benchmarks of the ARTF 
Incentive Program. While the World Bank has strengthened its oversight 
for the Recurrent Window, by requiring provincial site visits to ensure 
comprehensive M&E, and for the Investment Window, by recruiting a 
Monitoring Agent, additional Kabul-based World Bank staff would further 
strengthen program management, particularly as increasing demands are 
placed on the ARTF by donors and by GIRoA to support the critical 
period of Afghanistan's transition. The administration should also 
consider using the ARTF for a smaller number of big ``national 
programs'' like the National Solidarity Program to improve focus and 
oversight.

  <bullet> What steps is the administration taking to push for more 
        robust supervision from the World Bank on the ARTF?
  <bullet> How many programs is the ARTF currently sponsoring? Please 
        list all the programs.

    Answer. As a significant contributor to the World Bank's ARTF, the 
United States has played a prominent role in guiding the World Bank's 
management and supervision of funds. The United States actively 
participates in the ARTF Management Committee meetings and working 
groups including: Financial Strategy; Program Strategy, and Incentive 
Program working groups. Recent financial, strategy and incentive 
program working group discussions have reviewed the financial status of 
the ARTF, assessed the Afghan Government's performance in meeting the 
incentive program benchmarks, proposed increased oversight of the 
Recurrent Window (salaries and O&M), and considered donor action 
related to the lack of an Afghanistan IMF program.
    Quarterly, ARTF Donors meet to discuss broader ARTF strategy with 
the Afghan Government and with the ARTF Management Committee which 
includes the World Bank, the Islamic Development Bank, the Asian 
Development Bank, and the U.N. This oversight combined with rigorous 
independent audit mechanisms required of the ARTF (including GAO, 
SIGAR, and other donor audits) ensures robust supervision.
    At the technical level, weekly reports (and sometimes daily 
updates) are provided by the ARTF program managers and by key project 
managers, including in particular the National Solidarity Program.
    Specific details of ARTF programs are covered in quarterly and 
annual reports. The most recent annual report is located: http://
siteresources.worldbank.org/INTAFGHANISTAN/Resources/Afghanistan-
Reconstructional-Trust-Fund/Quartely_Report_Mar2010_Mar2011.pdf.
    Current Investment Window projects of the ARTF are as follows:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question #12. We are concerned about the implications of the IMF 
negotiations with the Afghan Government on the ARTF.

  <bullet> What are the consequences on our aid disbursements through 
        the ARTF if the Afghan Government and IMF cannot agree on a 
        program?

    Answer. The United States has set aside $400 million in FY 2010 
supplemental funds to support the ARTF, of which $250 million is 
designated for the Investment Window, specifically to the National 
Solidarity Program (NSP). We have yet to distribute any of those funds 
to the ARTF. This is due in part to the lack of resolution over an IMF 
agreement. Some programs and windows within the ARTF are bound by the 
presence of an IMF country program or extended credit facility. The 
absence of an IMF country program has already prevented the 
disbursement of $70 million in Incentive Program discretionary funds to 
the Afghan Government and had a strong influence on the World Bank's 
position not to disburse quarterly $50 million payments to the ARTF 
Recurrent Costs Window--a position that the U.S. supports.
    The World Bank has asked donors to consider ``delinking'' 
Investment Window contributions from resolution of the IMF impasse. In 
doing so, the World Bank is seeking to create the conditions that would 
allow critical development projects such as NSP, higher education, 
skills development, irrigation, governance, and justice projects, to 
continue operating. This would also prevent new national programs 
outlined in the ARTF Financing Strategy for this year from being 
postponed, in the absence of additional ARTF funding. Regardless of the 
donor decision on continued support to the Investment Window, the 
absence of additional disbursements to the Recurrent Cost Window may 
lead the Afghan Government to reprioritize its discretionary spending 
towards paying civil servant salaries.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                 Submitted by Senator Richard G. Lugar

    Question. Please comment on the issue of the tax that U.S. 
contractors pay to the Government of Afghanistan. Are there any efforts 
to overturn this policy? Evidently, the Afghan Government has been 
sending past-due tax bills to U.S.-based companies in direct 
contravention of existing bilateral agreements that prohibit such 
taxation. Many of these companies are delivering stabilization and 
reconstruction assistance to Afghanistan funded through American taxes. 
Taxing such U.S. foreign assistance diverts it from its intended 
purpose and hampers its effectiveness. Further, is there any 
information on different standards for treatment of local contractors 
or U.S. or other coalition contractors?

    Answer. The taxation of foreign contractors operating in 
Afghanistan, as in most countries, is a complex issue and one that is 
complicated by the variety of tax exemptions related to the U.S. 
Government and its contractors. ISAF is governed by the Military 
Technical Agreement (MTA); DOD is governed by the Status of Forces 
Agreement (SOFA); USAID and State's International Narcotics and Law 
(INL) assistance programs are governed by program-specific bilateral 
agreements; and, the U.S. Embassy's tax and duty exemptions are based 
on the Vienna Convention on Diplomatic Relations (VCDR).
    You expressed concern that the Afghan Government is presenting tax 
bills in contravention of existing agreements. We are aware that some 
foreign contractors have received tax bills from the Afghan Government. 
In a number of cases, the tax bill was for income derived from 
activities that were not tax exempt, for income mistakenly reported by 
the contractor as taxable instead of tax exempt, or resulted from the 
contractor's failure to properly register its activities as tax exempt. 
In other cases, however, taxes may have been assessed on activities 
that were properly exempt from taxes where the contractor sought to 
register them as such. In some of these cases, the U.S. Embassy in 
Kabul has worked with the contractor and with the Afghan Government to 
resolve the matter. Other contractors, on their own, have worked with 
the Afghan Government to reduce their tax bills and ensure their 
compliance with applicable law.
    The Afghanistan Country Commercial Guide issued by the U.S. 
Commercial Service at U.S. Embassy Kabul includes a description of the 
tax treatment of a range of U.S. agency contractors. It is available 
online at http://photos.state.gov/libraries/afghanistan/231771/PDFs/
2011ccg_afghanistan-final.pdf and http://trade.gov/static/
2011CCG_Afghan.pdf. USAID has also made available detailed information 
on tax issues related to USAID assistance to Afghanistan, including an 
information sheet specific to its implementing partners, which can be 
found at http://afghanistan.usaid.gov/en/about/legal/taxation/. 
Additionally, lawyers and contracting officers from both the U.S. 
Embassy and DOD have formed a working group to coordinate responses to 
USG implementing partners with concerns about improper taxation 
(including back taxes) to ensure consistent messaging and 
responsiveness. In addition, the Embassy has consistently recommended 
that U.S. companies retain local counsel specializing in taxation 
matters.
    Regarding local contractors, the Afghan Government does assert its 
authority to tax its own nationals, which is consistent with the 
position taken by the U.S. Government with respect to U.S. nationals 
and as is commonly recognized in bilateral assistance agreements.

    Question. In your statement, with regard to the civilian surge of 
personnel in Afghanistan, you stated that ``improving governance, 
creating economic opportunity, and supporting civil society is vital to 
solidifying our military gains and advancing our political goals.'' 
While the President asserted that the military would begin to drawdown 
in July and complete the withdrawal of at least 10,000 by the end of 
2011 and another 23,000 no later than September 2012.

  <bullet> a. What number of civilians do you expect to be withdrawn 
        over the same time period?

    Answer. Our civilian presence in Afghanistan is closely coordinated 
with the U.S. military and our NATO allies and partners, and is an 
integral part of the administration's strategy to disrupt, defeat, and 
dismantle al-Qaeda. Civilians are partnering with the military on 
District Support Teams, Regional Platforms and Provincial 
Reconstruction Teams. As provinces are transferred to Afghan security 
lead and as the military phases out these civilian-military field 
platforms, our plan is to gradually reduce our civilian field presence 
from our approved 1,227 positions--725 in Kabul and 405 in the field--
and fold the remaining personnel into enduring presence platforms: 
Kabul, plus two to four regional outposts or consulates by 2015. These 
changes would reduce the field number to about 200.

  <bullet> b. What specific programs and resources have been 
        identified, within the U.S. whole of government approach to 
        stabilization and reconstruction and development that the Obama 
        administration has taken in Afghanistan, for reduction to align 
        with the President's newly formulated strategy?

    Answer. USAID and the State Department are currently undertaking 
planning exercises for the civilian presence post-transition. These 
exercises recognize that we will need to gradually reallocate civilian 
assistance resources to more closely match long-term needs and 
priorities as we move toward transition. Closer to 2014, we anticipate 
a need for increased civilian resources in some sectors, as State and 
USAID inherit some roles and responsibilities formerly funded by the 
U.S. military that are essential to a responsible transition. For 
example, as the U.S. military draws down, the State Department may need 
additional funds to ensure the successful transition of U.S. military 
detention facilities to Afghan control. At the same time, transition 
offers the opportunity for the United States to shift to a more 
``traditional'' assistance relationship with Afghanistan with a longer 
term focus and a reduction in short-term stabilization and 
counterinsurgency-focused programs.
    We will continue to make priority/foundational investments in key 
sectors identified in cooperation with the Afghan Government (such as 
energy, infrastructure, and human capacity). Design and implementation 
of these programs will focus intensely on sustainability and regional 
integration as our programs transition away from stabilization and 
focus more exclusively on long-term sustainable development.

  <bullet> c. Describe the limits of the narrower approach to achieving 
        more specific and achievable goals. Do you expect the next 
        budget request to reflect similar levels as the most recent or 
        should Congress expect to see significant reductions in 
        economic and security assistance requests?

    Answer. The FY 2013 budget request is still being developed within 
the Department of State and USAID, and final recommendations on overall 
levels of assistance for Afghanistan have yet to be made by Secretary 
Clinton. As the military draws down and more responsibilities 
transition to an Afghan lead, some funding in sectors explicitly tied 
to stabilization and counterinsurgency could be scaled back in parts of 
Afghanistan. However, as we focus on transition and sustainable 
foundational investments (such as infrastructure, economic growth, and 
capacity-building), assistance levels may need to increase in some 
areas to address these priorities. We have begun a multiagency review 
of our economic strategy in Afghanistan as we move toward transition, 
with a goal of prioritizing projects or foundational investments that 
will allow Afghanistan to generate revenues, particularly from the 
extractive industries, to minimize dependence on donor assistance.

    Question. You and others have stated that Pakistan will play an 
important role in a political resolution to the Afghanistan conflict.

  <bullet> Describe what role other neighbors or other nations will 
        play in a political resolution, including India, Iran, Saudi 
        Arabia, Turkey, Russia, and China.

    Answer. To complement our efforts within Afghanistan, the United 
States and Afghanistan are both actively engaged in regional diplomacy 
to seek support for a political solution to the conflict. The Afghan 
Government has engaged the Pakistani Government to secure its support 
for reconciliation, and both countries agreed in January to form a 
Joint Peace Commission, which had its first meeting on June 11. The 
United States, Pakistan, and Afghanistan have established a core group 
to support reconciliation, which has met twice since May 3. Special 
Representative Grossman has begun regular consultations with interested 
regional powers, including Saudi Arabia, China, Russia, Turkey, and 
India. Our diplomatic surge is building on and consolidating the gains 
made by our military and civilian surges, and helping to make Afghan-
led reconciliation and reintegration achievable and sustainable.

    Question. What if any role will the United Nations play in the 
political resolution?

    Answer. The U.N. plays an important role in the political 
resolution of the conflict in Afghanistan. The mandate of the U.N. 
Assistance Mission in Afghanistan (UNAMA) includes as one of its 
priorities support to an Afghan-led process of peace and 
reconciliation. Through the ``Salaam Support Group,'' UNAMA has been 
supporting and advising the High Peace Council (HPC). In consultation 
with the HPC, UNAMA has engaged provincial council representatives, 
religious and community leaders, as well as civil society, youth, 
women's groups, and emerging political groups to discuss peace and 
reconciliation in an inclusive dialogue with all segments of the Afghan 
population. UNAMA also plays an important role in the reintegration 
process through the UNDP administered Afghan Peace and Reintegration 
Fund (APRF). The Secretary General's Special Representative (SRSG) is 
further mandated to support regional cooperation to work toward a 
stable and prosperous Afghanistan.

    Question. What specific roles are envisioned for the United Nations 
as the individual partners and the broad coalition, including the 
United States, depart Afghanistan?

    Answer. As the military mission winds down during the transition 
process, civilian assistance to Afghanistan will remain a high priority 
for the United States and our international partners. The U.N. Security 
Council in March 2011(UNSC Resolution 1974) asked the U.N. Secretary 
General to review the scope of the mandate for UNAMA in the light of 
the transition process and with the aim of strengthening Afghan 
leadership and ownership, to make sure that the next mandate reflects 
the changed environment. The review process is still in its early 
stages.
    The United Nations Development Program (UNDP) will continue to be 
an agent-partner in delivering development assistance, focusing mainly 
capacity development for government ministries in areas of democratic 
governance, poverty reduction, crisis prevention and recovery. UNDP's 
2010-13 Country Program for Afghanistan
was resources at USD 1.1 billion funded entirely through donors' 
voluntary contributions.

    Question. Please provide a list of the countries, by year, that 
have received waivers to the national budget transparency requirement 
enshrined in recent appropriations acts requiring that no ``funds 
appropriated . . . may be made available for assistance for the central 
government of any country that fails to make publicly available on an 
annual basis its national budget, to include income and expenditures'' 
unless waived by the Secretary of State because it ``is in the national 
interests of the United States.'' Please also indicate whether 
Afghanistan and Pakistan have received waivers and, if so, what steps 
they are taking to improve budget transparency.

    Answer. Countries receiving fiscal transparency waivers from FY 
2009-11 include:
FY 2011 *
East Asia and Pacific: Cambodia*

Near East: Algeria,* Egypt,* Lebanon,* Libya, Yemen

South & Central Asia: Afghanistan,* Kyrgyzstan,* Tajikistan,* 
        Turkmenistan,* Uzbekistan*

Western Hemisphere: Dominican Republic,* Nicaragua

Africa: Angola, Cameroon, CAR, Chad, Cote d'Ivoire, DRC, Ethiopia, 
        Gabon, Gambia, Guinea, Guinea Bissau, Madagascar,** Niger, 
        Somalia, Swaziland*
FY 2010
East Asia and Pacific: Cambodia
Near East: Algeria, Egypt, Lebanon, Libya, Saudi Arabia, Yemen
South & Central Asia: Afghanistan, Kyrgyzstan, Tajikistan, 
        Turkmenistan, Uzbekistan
Western Hemisphere: Dominican Republic, Honduras, Nicaragua
Africa: Angola, Burkina Faso, Cameroon, CAR, Chad, Comoros, Cote 
        d'Ivoire, DRC, Ethiopia, Gabon, Gambia, Guinea, Guinea Bissau, 
        Madagascar, Senegal, Somalia, Swaziland
FY 2009
East Asia and Pacific: Cambodia
Near East: Egypt, Lebanon, Libya, Saudi Arabia, Yemen
South & Central Asia: Afghanistan, Kyrgyzstan, Maldives, Tajikistan, 
        Turkmenistan, Uzbekistan
Western Hemisphere: Bolivia, D.R., Dominica, Nicaragua, St. Vincent
Africa: Angola, Burkina Faso, Cameroon, CAR, Chad, Congo-B, Cote 
        d'Ivoire, DRC, Ethiopia, Gabon, Gambia, Guinea Bissau, Niger, 
        Somalia, Senegal, Swaziland, Zambia

* Indicates that Deputy Secretary Nides has already signed the 
transparency waiver.

    In FY 2011 Afghanistan received a fiscal transparency waiver, as 
its budget was not deemed to be sufficiently available to the public. 
For example, it is difficult to find data on the external component of 
Afghanistan's budget, including external assistance provided by donors. 
Afghan budget numbers do not adequately reflect the low execution rate 
for the development budget. U.S. support for strengthening the capacity 
of Afghan institutions helps increase budget transparency. The Afghans 
have taken positive steps in this direction. The Ministry of Finance 
(MOF) drafted a Public Financial Framework in July 2010 to strengthen 
budget execution and fiduciary controls.
    The MOF also posts annual government budgets online, as it has 
since 2004, in addition to mid-year reviews of the budget and 
government execution and disbursement reports.
    Pakistan did not receive a budget waiver in FY 2011, as its budget 
was assessed as sufficiently transparent.

    Question. On March 11, 2011, I wrote to you to seek answers to 
questions about the administration's March 7 statement with regard to 
Article 75 of Additional Protocol I of the Geneva Conventions of 1949.
    On May 18, 2011, I received a letter signed by the Acting Assistant 
Secretary of State for Legislative Affairs purporting to respond to my 
questions. The information contained with this letter was not 
responsive to my questions.

  <bullet> Will you review the response to my letter and ensure that I 
        receive responsive answers to my questions?

    Answer. As noted in the Legal Advisor's responses to questions from 
the June 28, 2011, hearing, the administration's statement of March 7, 
2011, resulted from a comprehensive interagency review, including the 
Departments of Defense, Justice, and State, of current U.S. law and 
military practice. The statement also reflects the longstanding view of 
the United States that Article 75 contains fundamental guarantees of 
humane treatment (e.g., prohibitions against torture) to which all 
persons in the power of a party to an international armed conflict are 
entitled. In 1987, President Reagan informed the Senate that although 
the United States had serious concerns with Additional Protocol I, 
``this agreement has certain meritorious elements . . . that could be 
of real humanitarian benefit if generally observed by parties to 
international armed conflicts.'' For this reason, he noted, the United 
States was in the process of developing appropriate methods for 
``incorporating these positive provisions into the rules that govern 
our military operations, and as customary international law.'' As a 
general matter, the executive branch previously has taken the position 
that certain norms, including those reflected in treaties to which the 
United States is not a party (e.g., the Law of the Sea Convention, the 
Vienna Convention on the Law of Treaties), constitute customary 
international law.
    a. The Administration determined that existing U.S. treaty 
obligations, domestic law, and regulations related to the treatment of 
detainees in armed conflict substantially overlap with the obligations 
that Article 75 imposes on States Party to Additional Protocol I. 
Examples of where many of the provisions of Article 75 are already 
reflected in existing U.S. law and regulations include: Common Article 
3 of the 1949 Geneva Conventions; the 1949 Geneva Convention Relative 
to the Treatment of Prisoners of War; the 1949 Geneva Convention 
Relative to the Protection of Civilian Persons in Time of War; the War 
Crimes Act of 1996, as amended; the Detainee Treatment Act of 2005; the 
Military Commissions Act of 2009; the Uniform Code of Military Justice; 
DOD Directive 2310.01E (``The Department of Defense Detainee 
Program''); and Army Regulation 190-8 (``Enemy Prisoners of War, 
Retained Personnel, Civilian Internees and Other Detainees''). 
Consistent with this set of existing and overlapping requirements in 
U.S. law, the administration also determined that current U.S. military 
practices are fully consistent with the requirements of Article 75. 
Accordingly, the administration considered it appropriate to state that 
the United States will choose to abide by the principles set forth in 
Article 75 applicable to detainees in international armed conflicts out 
of a sense of legal obligation, and that we would expect other states 
to do the same.
    b. Following our March 7 statement, there was some speculation as 
to why we referred to the application of Article 75 specifically in the 
context of ``international armed conflict.'' The simple explanation is 
that Article 75 of Additional Protocol I, like all of Additional 
Protocol I, is intended by its terms to be applied to international 
armed conflict. Our statement should not be taken to suggest that 
similar protections should not apply in noninternational armed 
conflict. It only reflects the fact that corresponding protections with 
respect to noninternational armed conflict are memorialized elsewhere--
in particular, in Common Article 3 of the 1949 Geneva Conventions and 
Articles 4 through 6 of Additional Protocol II, both of which apply to 
noninternational armed conflicts.
    Although the United States is not yet party to Additional Protocol 
II, as part of the review process described above, the administration, 
including the Departments of State, Defense and Justice, also reviewed 
its current practices with respect to Additional Protocol II, and found 
them to be fully consistent with those provisions, subject to 
reservations, understandings, and declarations that were submitted to 
the Senate in 1987, along with refinements and additions that we will 
submit. Accordingly, on March 7, 2011, the administration also 
announced its intent to seek Senate advice and consent to ratification 
of Additional Protocol II as soon as practicable. We believe that 
ratification of Additional Protocol II will be an important complement 
to the step we have taken with respect to Article 75. We look forward 
to working with you, as ranking member of the Senate Foreign Relations 
Committee, on this most important matter.
    c. As a matter of international law, the administration's statement 
is likely to be received as a statement of the U.S. Government's opinio 
juris as well as a reaffirmation of U.S. practice in this area. The 
statement is therefore also likely to be received as a significant 
contribution to the crystallization of the principles contained in 
Article 75 as rules of customary international law applicable in 
international armed conflict.
    Determining that a principle has become customary international law 
requires a rigorous legal analysis to determine whether such principle 
is supported by a general and consistent practice of states followed by 
them from a sense of legal obligation. Although there is no precise 
formula to indicate how widespread a practice must be, one frequently 
used standard is that state practice must be extensive and virtually 
uniform, including among States particularly involved in the relevant 
activity (i.e., specially affected States). The U.S. statement, coupled 
with a sufficient density of State practice and opinio juris, would 
contribute to creation of the principles reflected in Article 75 as 
rules of customary international law, which all States would be 
obligated to apply in international armed conflict. (The 168 States 
that are party to Protocol I are of course already required to comply 
with Article 75 as a matter of treaty law.)
    d. As discussed above, the administration's statement followed from 
a determination that existing U.S. law and regulations impose 
requirements on U.S. officials that substantially overlap with the 
requirements of Article 75. The statement does not alter those 
statutory and regulatory requirements. If Article 75 were determined to 
be customary international law, it would have the same effect on U.S. 
law as other customary international legal norms. The United States has 
long recognized customary international law, whether reflected in 
treaty provisions or otherwise, as U.S. law (see, e.g., the Supreme 
Court's discussion of customary international law in The Paquete Habana 
175 U.S. 677 (1900)).
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator James M. Inhofe

                              afghanistan
    While in Afghanistan on June 6, 2011, Secretary Gates said that 
pulling out of Afghanistan too fast would threaten the gains made in 
the 18 months since the ``surge'' of 30,000 troops. Secretary Gates 
told Marines in Afghanistan, ``If you guys and everybody keeps the 
pressure on, we can hang onto everything we've gained over the last 
year to 18 months, we can expand the security bubble beyond that. . . . 
We have succeeded in stopping the Taliban's momentum . . . but we've 
just kind of turned that corner and I think we need to keep the 
pressure on.'' In Kabul, he appealed for patience and said that only 
modest U.S. troop reductions would make sense this summer in a still 
unstable Afghanistan. U.S. and coalition commanders I met on the ground 
in Afghanistan have repeatedly told me that it's too early to make 
major changes, and some believe it will take until the end of this 
fighting season to get a true assessment of the conditions on the 
ground in Afghanistan. I trust our military leadership to make the 
right decision based on their assessment of the conditions on the 
ground. Some argue that, with Osama bin Laden dead, our mission in 
Afghanistan is complete. The killing of Osama bin Laden was a great 
victory, but our mission in Afghanistan is to ensure that it can never 
again become a staging area for terrorist attacks against the American 
homeland.

    Question. What specific conditions must be met to determine the 
extent of a U.S. troop drawdown this year, next year, and in 2014?

    Answer. As the President laid out in his June 22 speech, the United 
States will withdraw 10,000 U.S. troops from Afghanistan by the end of 
2011; the remaining 23,000 ``surge'' troops he announced in December 
2009 will leave Afghanistan by the end of summer 2012. Beyond this 
initial reduction of the surge, the process of transition will continue 
as Afghan security forces move into the lead, and our mission will 
shift from combat to support. In line with the President's speech, the 
commander on the ground will determine the pace and reinvestment of the 
remaining security forces based on these comprehensive assessments. By 
2014, this process of transition will be complete, and the Afghan 
people will be responsible for their security.

    Question. Which conditions have been met to date?

    Answer. We have made substantial progress on the objectives the 
President laid out in his December 2009 speech at West Point, where he 
put forth a new U.S. strategy for Afghanistan and Pakistan focusing on 
disrupting, dismantling, and defeating al-Qaeda and preventing its 
capacity to threaten America and our allies in the future. To 
accomplish this, he said we would pursue three objectives: deny al-
Qaeda a safe haven, reverse the Taliban's momentum, and strengthen the 
capacity of Afghan National Security Forces (ANSF) and government so 
that they can take lead responsibility for Afghanistan's future. We 
have exceeded expectations on the core goal of defeating al-Qaeda--
killing more than half of its top 30 leaders, including Osama Bin 
Laden. We have broken the Taliban's momentum, particularly in their 
traditional strongholds of Helmand and Kandahar provinces, and trained 
over 100,000 ANSF. Building on that progress, the United States and its 
international partners are now working with the Afghans, through a 
process approved by the international community, to restore Afghanistan 
to full sovereignty and to assist them in resuming full responsibility 
for both security and service delivery by 2014. The first tranche of 
seven provinces and municipalities, which have been vetted and approved 
for transition, will begin their transfer to Afghan lead July 20.

    Question. What conditions would cause a delay in the withdrawal of 
troops?

    Answer. As the President stated in his speech, as a result of the 
progress in Afghanistan 10,000 troops will depart Afghanistan by the 
end of 2011 with 23,000 additional troops departing by September 2012. 
The 68,000 troops that constituted the base force in place before the 
surge will remain and then begin gradually coming home as Afghan 
security forces move into the lead. Independent monthly provincial 
assessments provided by ISAF and NATO track security and governance 
across all Afghan provinces. In line with the President's speech, the 
commander on the ground will determine the pace and reinvestment of the 
remaining security forces based on these comprehensive assessments.

    Question. What conditions must be met to transition to Afghan 
control?

    Answer. Transition is linked directly to and in the service of the 
larger political process that was introduced by Secretary Clinton in 
her Asia Society speech on February 18, 2011. In pursuit of this goal, 
we are following a strategy with three mutually reinforcing tracks--
three surges: a military offensive against al-Qaeda and Taliban 
insurgents, a civilian campaign to bolster the governments, economies, 
and civil societies of Afghanistan and Pakistan to undercut the pull of 
the insurgency, and an intensified diplomatic push to bring the Afghan 
conflict to an end and chart a new and more secure future for the 
region. The Afghan National Security Forces need to be equipped and 
capable of sustaining achieved security gains with minimal overwatch 
from coalition military partners. This will concurrently provide the 
space for the Afghan Government to continue to build capacity within 
local and provincial offices in order to provide basic services to the 
people and opportunities for external private sector investment to 
grow. As the first two surges transition, the final diplomatic surge 
becomes the focus of our political efforts. It envisions a political 
process operating on all levels, including the region and Afghanistan's 
neighbors, and encouraging Afghans to address their own internal 
political challenges.

    Question. What are the minimum conditions that must be achieved in 
Afghanistan in order for Afghans to be able to sustain stability with 
relatively limited international assistance?

    Answer. All provinces will have completed security transition by 
the end of 2014. The timing of each province's transition will be 
determined through a review process that has been established by the 
Afghans and supported by the international community that will take 
account of the capacity of local security forces to maintain security. 
For all partners and allies, there will be issued guidance, but not a 
template. Plans will be developed around each province's unique 
circumstances that are not formulaic, or excessively prescriptive. The 
Afghan National Security Forces need to be equipped and capable of 
sustaining achieved security gains with minimal overwatch from 
coalition military partners. This will concurrently provide the space 
for the Afghan Government to continue to build capacity within local 
and provincial offices in order to provide basic services to the people 
and opportunities for external private sector investment to grow.

    Question. What impact would a failure in Afghanistan have on U.S. 
national security in the long term?

    Answer. Our strategic objective in Afghanistan remains to disrupt, 
dismantle, and defeat al-Qaeda and to prevent its return to 
Afghanistan, where it could once again threaten the United States and 
our allies. We know the consequences of disengaging from this region 
and letting despair and extremism take hold. Afghanistan is at the 
heart of a region with over 2 billion people and two nuclear weapon 
states. Long-term stability here is a vital U.S. national interest. 
This is why even after our combat troops come home, we remain committed 
to preserving their hard-won gains, and why our civilians will remain 
engaged to help build and stabilize the region in the years to come.

    Question. During my visit over the New Year's holiday, Afghan and 
coalition personnel unanimously told me that setting the July 2011 
timeline to begin withdrawal of U.S. forces from Afghanistan had a 
devastating effect on operations--it sent the wrong signal to the 
Afghan people, our coalition partners, and the Taliban.

  <bullet> Do you believe the announcement of a July 2011 withdrawal 
        date negatively impacted operations?

    Answer. No, the President's drawdown decision was based on the best 
assessment of conditions on the ground. He has calibrated the drawdown 
to match those conditions and his decision is in line with our 
transition strategy. We are confident that we are on track and that the 
drawdown he announced will unfold on the timelines set forth.

                                  <all>

</pre></body></html>
